  Report No. D-2009-071          April 22, 2009




Summary of DoD Office of Inspector General Audits of
     Acquisition and Contract Administration
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704




Acronyms and Abbreviations

CAE                           Component Acquisition Executive
CENTCOM                       Central Command
COR                           Contracting Officer Representative
DAU                           Defense Acquisition University
DFARS                         Defense Federal Acquisition Regulation Supplement
DIA                           Defense Intelligence Agency
DoDI                          Department of Defense Instruction
DPAP                          Director, Procurement and Acquisition Policy
FAR                           Federal Acquisition Regulation
GAO                           Government Accountability Office
GWOT                          Global War on Terror
IG                            Inspector General
MIPR                          Military Interdepartmental Purchase Request
OEF                           Operation Enduring Freedom
OIF                           Operation Iraq Freedom
OUSD(AT&L)                    Office of the Under Secretary of Defense for Acquisition,
                              Technology, and Logistics
SPOT                          Synchronized Predeployment and Operational Tracker
UCA                           Undefinitized Contract Action
UCMJ                          Uniform Code of Military Justice
U.S.C.                        United States Code
                                    INSPECTOR GENERAL
                                    DEPARTMENT OF DEFENSE
                                      400 ARMY NAVY DRIVE
                                 ARLINGTON, VIRGINIA 22202~-4704



                                                                                    April 22, 2009

MEMORANDUM FOR DISTRIBUTION:


SUBJECT: Summary of DoD Office ofInspector General Audits of Acquisition and Contract
         Administration (Report No. D-2009-071)

We are providing this report for your information and use. We did not issue a draft report because
this report summarizes material that was already published. This report is a summary of the DoD
Office ofInspector General audit reports related to DoD's acquisition and contract administration
functions that were issued during FY 2003 through FY 2008. This report contains no
recommendations; therefore, written comments are not required.

Questions should be directed to me at (703) 604-9071.




                                  Deputy Assistant Inspector General
                                 Acquisition and Contract Management
DISTRIBUTION:
SECRETARY OF DEFENSE
DEPUTY SECRETARY OF DEFENSE
SECRETARY OF THE ARMY
SECRETARY OF THE NAVY
SECRETARY OF THE AIR FORCE
UNDER SECRETARY OF DEFENSE FOR ACQUISITION, TECHNOLOGY, AND
LOGISTICS
   DIRECTOR, DEFENSE PROCUREMENT AND ACQUISITION POLICY
UNDER SECRETARY OF DEFENSE FOR PERSONNEL AND READINESS
UNDER SECRETARY OF DEFENSE FOR POLICY
UNDER SECRETARY OF DEFENSE (COMPTROLLER)/CHIEF FINANCIAL
   OFFICER
CHIEF, NATIONAL GUARD BUREAU
ASSISTANT SECRETARY OF DEFENSE FOR NETWORKS AND INFORMATION
   INTEGRATION/DOD CIO
ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL MANAGEMENT
   AND COMPTROLLER)
DIRECTOR, JOINT STAFF
DIRECTOR, DEFENSE CONTRACT AUDIT AGENCY
DIRECTOR, DEFENSE CONTRACT MANAGEMENT AGENCY
DIRECTOR, DEFENSE FINANCE AND ACCOUNTING SERVICE
DIRECTOR, DEFENSE LOGISTICS AGENCY
DIRECTOR, DEFENSE SECURITY COOPERATION AGENCY
NAVAL INSPECTOR GENERAL
AUDITOR GENERAL, DEPARTMENT OF THE ARMY
AUDITOR GENERAL, DEPARTMENT OF THE NAVY
AUDITOR GENERAL, DEPARTMENT OF THE AIR FORCE
OFFICE OF MANAGEMENT AND BUDGET
GOVERNMENT ACCOUNTABILITY OFFICE
Report No. D-2009-071 (Project No. D2006-D000CK-0270.000)               April 22, 2009


              Results in Brief: Summary of DoD Office of
              Inspector General Audits of Acquisition and
              Contract Administration

What We Did                                             4. Commercial Acquisition
Our overall objective was to summarize the              5. Sole-Source Selection
DoD Inspector General reports that discussed            6. Past Performance
deficiencies in the acquisition and contract            7. Multiple-Award Contracting
administration process within DoD.                      8. Performance-Based Service Contracts
Specifically, we reviewed and summarized                9. Oversight and Surveillance
acquisition- and contract administration-related        10. Inter-Agency Contracting/Military
audit reports that the DoD Inspector General                 Interdepartmental Purchase Requests
issued from FY 2003 through FY 2008. These              11. Potential Antideficiency Act Violations
reports discussed issues related to the                 12. Material Internal Control Weaknesses
Government Accountability Office high-risk
areas of weapon systems acquisition, contract
management, and Management of interagency
contracts. This summary could be used by DoD           What We Recommend
acquisition and contract managers as lessons           We are not making any recommendations in this
learned in drafting key initiatives that address       report because the recommendations made in
these high-risk areas or provide a resource for        the respective individual reports, if
training personnel in the Defense Acquisition          implemented, should correct the issues
Workforce Improvement Act career fields.               identified. Appendix D and E lists the
                                                       initiatives that DoD has taken within the last
What We Found                                          two years to address many of the challenges
                                                       noted in these reports. Appendix F provides a
The DoD Inspector General issued 142 reports
                                                       status of the recommendations contained in the
during FY 2003 through FY 2008 that pertain to
                                                       142 reports.
the acquisition and contract administration
process. We grouped the deficiencies discussed
in these reports into the following 12 issue
areas:

 1. Completeness of Acquisition Support
     Data
 2. Sufficiency of Requirements
 3. Adequacy of Contract Pricing




                                                   i
Table of Contents

Results in Brief                                                                  i

Introduction

       Objectives                                                                 1
       Background                                                                 1
       Review of Internal Controls                                                2


Audit Coverage of Acquisition and Contract Administration Functions               3

   Acquisition and Contract Award Decisions                                       4

       Issue Area 1. – Completeness of Acquisition Support Data                   4

       Issue Area 2. – Sufficiency of Requirements Determinations                 6

   Contract Types and Pricing                                                     7

       Issue Area 3. – Adequacy of Contract Pricing                               7

       Issue Area 4. – Use of Commercial Acquisition                              8

       Issue Area 5. – Use of Sole-Source/Directed-Source Selection              10

       Issue Area 6. – Considerations of Contractor’s Past Performance           11

       Issue Area 7. – Use of Multiple-Award Contracts                           13

       Issue Area 8. – Appropriate Use of Performance-Based Service Contracts    14

   Contract Administration and Funding                                           15

       Issue Area 9. – Oversight and Surveillance                                15

       Issue Area 10. – Inter-Agency Contracting or Military Interdepartmental
                         Purchase Requests                                       17

       Issue Area 11. – Potential Antideficiency Act Violations                  19
   Overarching Issues                                                      20

      Issue Area 12. – Material Internal Control Weaknesses                20

Conclusions                                                                22

Appendices

      A. Scope and Methodology                                             23
             Prior Coverage                                                24
      B. Issue Areas by Audit Report                                       25
      C. DoD Inspector General Reports                                     29
      D. Initiatives Taken by DoD to Address Acquisition and
             Contract Administration Challenges                            39
      E. Panel on Contracting Integrity 2008 Report, Actions Implemented
              in 2008, and Actions for Implementation in 2009              47
      F. Status of Recommendations                                         53
Introduction
Objectives
Our overall objective was to provide DoD acquisition and contract managers with a
summary of major issue areas identified in DoD Inspector General (IG) audit reports
issued during the period from FY 2003 through FY 2008 that involve the Government
Accountability Office (GAO) high-risk areas of weapons systems acquisition and
contract management, and management of interagency contracting. We believe that this
summary could be helpful in drafting key initiatives to improve acquisition and contract
management or provide a resource for training personnel in the Defense Acquisition
Workforce Improvement Act career fields.


Background
The DoD is the world’s largest purchaser of goods and services. DoD spending on
contracts in FY 2008 was approximately $390 billion. This level of spending is more
than double the level of spending in FY 2001. The difference in the DoD budget from
FY 2001 to FY 2008 is just as significant. The DoD budget for FY 2008, including
supplemental and bridge funding, is almost $700 billion. The budget for FY 2001 was
more than $335 billion. Each acquisition dollar that is not prudently spent results in the
unavailability of that dollar to fund the top priorities of the Secretary of Defense to
support our warfighters and wastes valuable taxpayer dollars. Most significantly, the
DoD acquisition and contracting community continues to face the stress of managing the
increasing Defense budget with a smaller and less capable workforce. The increased
need for contracting in an expeditionary environment with an emphasis on urgency only
adds to the stress and strain on the workforce.

DoD Directive 5000.1, “Defense Acquisition System,” May 12, 2003, and DoD
Instruction (DoDI) 5000.2, “Operation of the Defense Acquisition System,” May 12,
2003, provide management principles and mandatory policies for managing all
acquisition programs. DoD Directive 5000.1 requires that milestone decision authorities
and program managers tailor program strategies and oversight; including documentation
of program information, acquisition phases, the timing and scope of decision reviews,
and decision levels; to fit the particular conditions of that program, consistent with
applicable laws and regulations and the time-sensitivity of the capability need. Once a
decision has been made to procure a system or satisfy a requirement, the Federal
Acquisition Regulation (FAR), the Defense Federal Acquisition Regulation Supplement
(DFARS), and the DoD Regulation 7000.14-R, “The DoD Financial Management
Regulation,” provide the policies, directives, guidance, and instructions for awarding and
administering contracts.

Government Accountability High-Risk Area
GAO has identified DoD weapon systems acquisition, contract management, and
management of interagency contracting as areas of high-risk for fraud, waste, abuse, and

                                            1
mismanagement. According to GAO, DoD management has limited assurance that it is
following sound business practices to acquire the goods and services needed to meet the
warfighter’s needs.

Recent DoD Management Actions
Although the lack of adequate controls over acquisition programs and compliance with
DoD and FAR guidance continues to challenge the Department as many programs exceed
cost and schedule estimates, DoD has taken a number of initiatives within the last year to
address these challenges. These initiatives and actions are listed in Appendix D and E.
Appendix F provides a status of the recommendations contained in the 142 reports.


Review of Internal Controls
DoDI 5010.40, “Managers’ Internal Control (MIC) Program Procedures,”
January 4, 2006, defines a material internal control weakness as a reportable condition
that is significant enough to report to the next higher level. Material internal control
weaknesses were identified in 58 of the 142 reports issued from FY 2003 through 2008.
We discuss these issues in more detail as the last issue area in this report. We are making
no recommendations because the recommendations made in the respective individual
reports, if implemented, should correct the material weaknesses identified.




                                             2
Audit Coverage of Acquisition and Contract
Administration Functions
Between FY 2003 and the end of FY 2008, the DoD IG issued 142 reports that discussed
issues pertaining to the acquisition and contract administration process. The reports
covered a wide variety of acquisition programs and issues. The DoD IG also reviewed
many aspects of DoD adherence to laws and regulations, specifically the FAR and the
DFARS, in the award and administration of contracts.

The DoD IG audits were initiated based on internal DoD management requests, Hotline
suggestions, statutory requirements, congressional requests, referrals from investigative
agencies, or internal research. As a result, the multiplicity of audit topics disclosed a
wide array of problems involving compliance with DoD Directives and FAR regulations
that are designed to ensure DoD receives what it needs at the best price. We grouped the
deficiencies discussed in the reports into the following 12 issue areas:

                      1. Completeness of Acquisition Support Data (65 reports),

                      2. Sufficiency of Requirements (50 reports),

                      3. Adequacy of Contract Pricing (52 reports),

                      4. Commercial Acquisition (10 reports),

                      5. Sole-Source Selection (32 reports),

                      6. Past Performance (8 reports),

                      7. Multiple-Award Contracting (10 reports),

                      8. Performance-Based Service Contracts (13 reports),
                      9. Oversight and Surveillance (55 reports),

                      10. Inter-Agency Contracting/Military Interdepartmental Purchase
                           Requests (20 reports),

                      11. Potential Antideficiency Act Violations (27 reports), and

                      12. Material Internal Control Weaknesses (58 reports).

Appendix A explains the methodology we used in reviewing these reports and how we
determined the issue areas to summarize for this report. Appendix B contains a list of the
issues areas by report number. Most of the reports identified more than one issue area.
Appendix C is a list of all of the reports and the hyperlink to obtain copies.




                                            3
From FY 2003 through FY 2008, DoD management has taken a number of steps to
strengthen the acquisition and contract administration process and to develop a better
trained and more experienced Defense acquisition work force. Appendices D and E
summarize these initiatives and actions. Appendix F provides a status of actions taken on
recommendations contained in the 142 reports.

Each issue area and specific examples of problems identified in individual reports are
discussed in the following sections.


Acquisition and Contract Award Decisions
DoD Directive 5000.1 and DoDI 5000.2 provide management principles and mandatory
policies for managing all acquisition programs. DoDI 5000.2 also establishes a
simplified and flexible management framework for translating approved mission needs
and technology opportunities into stable, affordable, and well-managed acquisition
programs. FAR 4.801, “General,” requires the head of each office performing
contracting, contract administration, or paying functions to establish files containing
records of all contractual actions.

Issue Area 1. – Completeness of Acquisition Support Data
Criteria

FAR 4.801 state that the documentation in the file should provide a complete history of
the transaction to provide a complete background as a basis for decisions at each step of
the acquisition process. This history should provide support for action taken, information
for reviews and investigations, and provide essential facts in the event of litigation or
congressional inquiries. FAR 4.803, “Contents of contract files,” specifies the following
examples of the records normally contained, if applicable, in the contracting office
contract files:

      purchase request, acquisition planning information, and other pre-solicitation
       documents;

      cost or pricing data and Certificates of Current Cost or Pricing Data or a required
       justification for waiver, or information other than cost or pricing data;

      contract completion documents; and

      any additional documents on what action was taken or that reflect actions by the
       contracting office pertinent to the contract.




                                            4
Results

In 65 of the 142 reports, we discussed problems with inadequate acquisition support data.
As a result, DoD agencies were unable to document why acquisition decisions were made
and whether DoD received the best item at the lowest price and acquisitions were
appropriate. The following are examples of inadequate acquisition support data.

      Air Force program managers had not prepared, updated, or obtained all required
       documentation before scheduling program reviews with milestone decision
       authorities for entry into the system development and demonstration or production
       phase of the acquisition process for 12 of 17 programs. As a result, milestone
       decision authorities did not have information needed to make fully informed
       milestone decisions. (D-2007-047, 1/23/2007)

      For a major aircraft program, the Air Force did not include in its acquisition plan
       a requirement to obtain accurate, complete, and current cost and pricing data to
       determine the reasonableness of the contractor’s proposed price for the
       noncompetitive portion of the aircraft acquisition. As a result, the Air Force did
       not have an approach for ensuring price reasonableness for the remaining
       acquisition of aircrafts. (D-2007-103, 5/30/2007)

      During the Hurricane Katrina recovery effort, DoD and the Federal Emergency
       Management Agency did not obtain or maintain supporting documents that were
       later needed to reconcile payments with the contractor’s invoices, resulting in
       Government overpayments to contractors. (D-2007-118, 8/24/2007)

      For the acquisition of the EA-6B Improved Capability III Program, the program
       manager provided a limited presentation of the Commander, Operational Test and
       Evaluation Force test results for the operational assessment to the Assistant
       Secretary of the Navy (Research, Development, and Acquisition) for Navy
       milestone decision meetings. Although the limited presentation concluded that
       the Improved Capability III was potentially operational, effective, and suitable
       based on the ratings for the critical operational issues and a listing of the
       50 additional deficiencies; the presentation did not describe how the deficiencies
       affected operational effectiveness and suitability. As a result, the Assistant
       Secretary of the Navy approved the program manager’s request to procure
       10 Improved Capability III systems for low-rate initial production, although the
       Navy had increased the risk that it will incur costly retrofit expenses to correct the
       design deficiencies for those systems at the completion of the dedicated
       operational test and evaluation phase. (D-2004-113, 8/31/2004)




                                             5
Issue Area 2. – Sufficiency of Requirements Determinations
Criteria

DoDI 5000.2 requires each increment in an evolutionary acquisition program includes a
system development and demonstration decision followed by a production and
deployment decision. The Instruction identifies the mandatory, statutory, and regulatory
documents that the program manager is required to submit in support of the system
development and demonstration decision review. Some of the required documents for
submission include an independent cost estimate, a manpower estimate, a technology
development strategy, and an acquisition program baseline. Some of the required
regulatory documents include an initial capabilities document, a capability development
document, an acquisition strategy, an analysis of alternatives, an affordability assessment,
a cost analysis requirements description, and a test and evaluation master plan.


Results

In 50 of the 142 reports, we discussed the lack of sufficient requirements planning for
major acquisitions. The following are examples of deficiencies in requirement
sufficiency that include not defining capability requirements, not justifying brand name
requirements, and not re-soliciting bids when requirements changed significantly.

      For the Navy Rapid Airborne Mine Clearance System, the program manager
       planned to hold the low-rate initial production decision review with the milestone
       decision authority in August 2008 before completing needed testing and program
       documentation. Until the program manager completed and obtained the needed
       testing and program documentation, the Navy was at risk of acquiring four low-
       rate initial production units of unknown operational performance at an estimated
       cost of $15 million. These units have not satisfied warfighter requirements and
       could require costly retrofits. Furthermore, the Navy Surface Weapons Center
       staff did not fully define significant system capability requirements, the required
       number of production units, and the expected life-cycle costs in the draft
       capability production document prepared to support the low-rate initial production
       decision. As a result, the Navy will not be able to effectively plan and budget for
       the system and verify through testing that the system will satisfy essential
       warfighter capability requirements. (D-2007-084, 4/11/2007)

      A Defense Threat Reduction Agency contracting official negotiated a
       $375 million single-source contract using flawed techniques. The agency official
       negotiated contract prices and terms using the final revised proposal after
       informing the contractor that it was the only company in negotiation. The
       contracting official based the contract award on a revised final proposal
       developed by the contractor with agency assistance that was substantially
       different from requirements contained in the contract solicitation. Defense Threat

                                             6
       Reduction Agency officials also accepted “other direct costs” in the revised final
       proposal that would have changed the competitive environment if those
       requirements had been included in the initial request for proposal. As a result, the
       Defense Threat Reduction Agency paid more than necessary for advisory and
       assistance service tasks. (D-2007-128, 9/26/2007)

      The World Wide Satellite System program officials did not have written
       justification for the use of brand name products for 10 of the 16 orders that were
       reviewed. Program officials cited specific brand names for delivery requirements
       including hardware, software, and ancillary equipment for 10 orders valued at
       $12 million, instead of encouraging the contractor to provide products that met
       the necessary attributes or performance qualities of the user’s requirement. Using
       brand name requirements without justification potentially precludes consideration
       of similar or better products manufactured by other companies, thus limiting
       competition. (D-2007-112, 7/23/2007)

      On the audit of contracting for and performance of the C-130J Aircraft, the Air
       Force conditionally accepted 50 C-130J aircraft at a cost of $2.6 billion although
       none of the aircraft met commercial contract specifications or operational
       requirements. The Air Force also paid Lockheed Martin more than 99 percent of
       the C-130J aircraft’s contracted price for the delivered aircraft. As a result, the
       Government fielded C-130J aircraft that could not perform their intended mission,
       which forced the users to incur additional operations and maintenance costs for
       older C-130 mission-capable aircraft because the C-130J aircraft could only be
       used for training. (D-2004-102, 7/23/2004)


Contract Types and Pricing
Section 2304, title 10, United States Code (10 U.S.C. 2304) and 41 U.S.C. 253 require
agency officials to procure goods and services through full and open competition in
accordance with the FAR except in situations where (1) particular sources must be
excluded, (2) the solicitation is restricted to small business concerns, (3) noncompetitive
procedures must be used to satisfy needs, and (4) simplified procedures are used for small
purchases. This section discusses the issue areas pertaining to the adequacy of contract
pricing, use of commercial acquisition, use of sole-source/directed-source selection,
consideration of contractor’s past performance, use of multiple-award contracts, and
appropriate use of performance-based services contracts.

Issue Area 3. – Adequacy of Contract Pricing
Criteria

DoD is generally required to obtain “fair and reasonable” prices for the goods and
services it procures from responsible sources. The FAR provides procedures for making
price determinations. Based on FAR 15.402, “Pricing Policy,” the contracting officer

                                            7
must not obtain more information than necessary in establishing the reasonableness of the
offered price. If the price is based on adequate price competition, then no additional
information should be obtained unless adequate information cannot be obtained from the
source. The contacting officer may request cost and pricing data to determine the fair and
reasonable price. Information other than cost and pricing includes information related to
prices such as established catalog or market prices or previous contract prices,
information available within the Government, information from other than the sources,
and cost information that does not meet the cost and pricing data definition.

Results

In 52 of the 142 reports, we discussed the lack of adequate pricing data and insufficient
analysis by contracting personnel to ensure DoD received the best price. The following
are examples of inadequate contract pricing.

       The Air Force C-17 program officials may not have achieved the best price by
        basing the price on a revalidation effort that produced unreliable results. The
        revalidation effort may have produced unreliable results because program
        officials inappropriately included an earned value management approach for
        revalidating the reasonableness of the negotiated fixed-price costs prior to
        definitization. In addition, program officials did not sufficiently investigate
        available data prepared by others that did not agree with the data the program
        office prepared and that may not support the decision by the program office to
        definitize the originally negotiated contract. As a result, not only did the
        Government not achieve the best price, it also cannot ensure that exercising
        priced options at the original negotiated prices are most advantageous to the
        Government. (D-2007-078, 4/9/2007)

       DoD used Department of the Interior contracting officials who did not adequately
        document and support that the prices were fair and reasonable. Multiple
        deficiencies were found in the area of sufficient support for decisions, technical
        reviews, legal reviews, Government cost estimates, and Government
        surveillance. Competition was not usually obtained. As a result, DoD has no
        assurance that it is obtaining the best value for its purchases. (D-2007-044,
        1/16/2007)

Issue Area 4. – Use of Commercial Acquisition
Criteria

The Federal Acquisition Streamlining Act of 1994 (Public Law 103-355, October 13,
1994) establishes a statutory preference for commercial items and the procedure to be
used when acquiring commercial items. The Act enables the Government to have
maximum access to competitive commercial markets and to commercial technologies. In



                                             8
addition, it simplifies the process for acquiring goods and services, with the intention of
reducing acquisition costs. These changes were incorporated into a revision of
FAR Part 12.

Section 4201 of the National Defense Authorization Act for FY 1996 (Public Law 104-
106, February 10, 1996) amended the commercial item exception for contracting officers
to obtain “certified cost and pricing data” to substantiate price reasonableness
determinations. This amendment broadened the exception to apply to all commercial
items. Previously, it applied only to those commercial items where there was an
“established catalog or market price” through sales “in substantial quantities to the
general public.” The commercial item definition is broad. In general, goods can be
obtained as commercial items if they are not real property and have been sold, or offered
for sale, to the general public or to nongovernmental entities for nongovernmental
purposes. In addition, the definition includes items that are not yet available in the
commercial market but will be available in time to satisfy the Government’s delivery
requirements.

The commercial item definition also includes items that have modifications of a type
available in a commercial marketplace or minor Government-unique modifications that
will not alter the nongovernmental function of the commercial item. Finally, the
commercial item definition includes services if the services are being provided to support
an item that has been designated commercial and similar services are being provided to
the general public and the Government at the same time under similar terms and
conditions.


Results

In 10 of the 142 reports, we discussed the inappropriate use of commercial item
acquisitions. The following are examples of inappropriate use of commercial item
acquisitions.

          The Government negotiating team used questionable commercial item
           determinations that exempted the contractor from the requirement to submit
           “cost and pricing” data on a commercial contract for noncompetitive spare
           parts used on Defense weapon systems. The Government did not establish an
           effective means to determine price reasonableness of the exempt
           “commercial” items. As a result, the Government officials relied primarily on
           price analysis of previous Government prices that had not been determined as
           “fair and reasonable.” As a result the Government had a high risk of paying
           excessive prices and profits. (D-2006-122, 9/29/2006)

          Contracting officials did not adequately justify the commercial nature of
           products bought for 35 of 42 DoD commercial contracts for Defense systems



                                             9
           and subsystems awarded in FYs 2003 and 2004. As a result, the Government
           may not achieve the visibility of “fair and reasonable” price. (D-2006-115,
           9/29/2006)

          The Government was not able to terminate an aircraft delivery contract
           because the contracting officer determined that the aircraft were commercial
           items and adopted a commercial acquisition strategy; therefore, the
           Government did not have “cost and pricing” data to develop an estimate of the
           contractor additional costs related to the reduction and acceleration of the
           aircraft procurement. (D-2006-093, 6/21/2006)

          The Government awarded a training aircraft systems contract as a commercial
           item under FAR Part 12, “Acquisition of Commercial Items”; however, there
           was no commercial market and limited foreign sales for these systems. As a
           result, the Government increased the risk of paying excessive prices because
           the Government did not obtain “cost and pricing” information from the
           contractor. (D-2006-075, 4/12/2006)

Issue Area 5. – Use of Sole-Source/Directed-Source Selection
Criteria

Negotiation for a sole-source contract should not be done without providing for full and
open competition unless the contracting officer justifies the need in writing as required by
FAR 6.302, “Circumstances permitting other than full and open competition”; certifies
the accuracy and completeness of the justification; and obtains the approval required by
FAR 6.304, “Approval of the justification.” Agencies must conduct market research
before developing new requirements documents for acquisitions and determine through
use of the results of the market research if sources capable of satisfying the requirements
exist. If a contract is awarded on a sole-source basis, a sole-source justification will
include an account of the market research conducted.

Awards under other than full and open competition are permitted in the following
circumstances:

      only one responsible source and no other supplies or services will satisfy agency
       requirements;

      unusual and compelling urgency;

      industrial mobilization; engineering, developmental, or research capability; or
       expert services;

      international agreement;

      authorized or required by statute;

                                            10
      national security;

      public interest.

Approval of the justification for other than full and open competition will be in writing
except when a contract is awarded under the authority of “Public Interest,” which is
defined as a situation where full and open competition need not be provided because the
agency head determines that it is not in the public interest for that particular acquisition.

Results

In 32 of the 142 reports, we identified instances where sole-source contracts may have
been unjustified or caused additional problems with the contracts. The following are
some examples.

      The Marine Corps Systems Command awarded sole-source contracts to Force
       Protection, Inc., for the Joint Explosive Ordnance Disposal Rapid Response
       Vehicle although Marine Corps Systems Command officials knew other sources
       were available for competition. As a result, the awards may have limited the
       Government’s ability to ensure that it paid fair and reasonable prices for the
       contracts. Furthermore, Marine Corps Systems Command officials did not
       adequately document their rationale for using commercial acquisition procedures.
       (D-2007-107, 6/27/2007)

      Defense Logistics Agency contracting officials were unable to effectively
       negotiate prices for spare parts from the contractor due to the constraints of a sole-
       source environment. (D-2006-055, 2/23/2006)


Issue Area 6. – Considerations of Contractor’s Past Performance
Criteria

As part of the source selection process under FAR 15.304, “Evaluation factors and
significant sub factors,” the prospective contractor’s past performance should always be
evaluated for negotiated competitive acquisitions that are expected to exceed the
simplified acquisition threshold. The exception is if the contracting officer documents the
reason why the past performance is not an appropriate evaluation factor for the
acquisition.

Under FAR Part 15.305 (a) (2), “Past performance evaluation,” past performance is one
indication of an offeror’s ability to perform the contract successfully. The currency and
relevance of the information, source of the information, context of the data, and general
trends in the contractor’s performance must also be considered. The solicitation must
describe the approach used for evaluating the past performance to include offerors with

                                              11
no relevant performance history and provide them an opportunity to identify past or
current contracts for efforts similar to the Government requirements as well as any issues
encountered and resolution of these issues. The Government must also consider and
evaluate information from other sources.

The evaluation should take into consideration past performance information regarding
predecessor companies, key personnel who have relevant experience, or subcontractors
who will perform major or critical aspects of the requirement. The evaluation should also
include the past performance of offerors in complying with subcontracting plan goals for
small disadvantaged business concerns.


Results

In 8 of the 142 reports, we discussed either the lack of past performance data or the
inappropriate use of past performance data to justify an acquisition. The following are
some examples.

      Marine Corps Systems Command continued to award contracts to a contractor
       although the contractor did not perform as a responsible contractor and repeatedly
       failed to meet contractual delivery schedules. (D-2007-107, 6/27/2007)

      The Air Force Principal Deputy for the Assistant Secretary of the Air Force for
       Acquisition and Management, acting as the source selection authority, directed
       that the past performance rating for a contractor be upgraded to aid it in winning
       the contract. The source selection authority chose to ignore the poor performance
       when justifying the contract award, and the contract file contained limited
       documentation to support the decision. (D-2006-104, 8/3/2006)

      The Air Force source selection authority did not choose relevant contracts from
       one contractor for the past performance evaluation in the source selection process.
       This resulted in the contractor winning the contract award unfairly. (D-2006-097,
       7/10/2006)

      Naval Facilities Engineering Command did not consider relevant past
       performance information in the award of a construction contract. The Army and
       the Navy had not input data related to the past performance under the Logistics
       Civil Augmentation Program and Construction Capabilities contracts into their
       respective automated contractor past performance collection systems. As result,
       the Navy may not have obtained a fair and reasonable price on the contract award.
       (D-2006-061, 3/3/2006)




                                            12
Issue Area 7. – Use of Multiple-Award Contracts
Criteria

FAR 16.504(c), “Multiple-Award Preference,” requires that contracting officers must, to
the maximum extent practicable, give preference to making multiple-awards of
indefinite-quantity contracts under a single solicitation for the same or similar supplies or
services to two or more sources. It also requires that contracting officers document the
decision whether or not to use multiple-awards in the acquisition plan or contract file.
For contracts for advisory and assistance services that exceed 3 years and $10 million
($11.5 million as of January 19, 2009), contracting officers are required to use multiple-
award contracts. Furthermore, FAR 16.505(b)(1), “Fair Opportunity,” states that when
multiple-award orders are awarded, contracting officials must give each contractor a fair
opportunity to be considered for each order or cite an exception to fair opportunity.

Results

In 10 of the 142 reports, we discussed the inappropriate use of contracts with multiple-
awards or found that contracting officials did not always allow fair opportunity to be
considered. The following are some examples.

       DoD contracting officials awarded 69 orders against the NASA Scientific and
        Engineering Workstation Procurement contracts in FY 2005 valued at
        $49.5 million without providing fair opportunity to all contractors under the
        multiple-award contracts. (D-2007-023, 11/13/2006)

       U.S. Army Corps of Engineers offices were awarding contracts for the same type
        of work and were not making optimal use of a multiple-award contract
        mechanism. (D-2006-007, 10/14/2005)

       The Defense Threat Reduction Agency used the multiple-award process to
        efficiently streamline Cooperative Threat Reduction Program procurements.
        However, on three task orders for subsequent phases of multi-phased
        requirements, Defense Threat Reduction Agency used a contractor down-select
        process * that did not provide each contractor supporting the Cooperative Threat
        Reduction Program fair opportunity to be considered for the task orders and did
        not cite an exception to the fair opportunity requirement. (D-2004-111,
        8/25/2004)



*
 The down-select process is a process in which the program office evaluates all the estimated work plans
submitted by multiple contractors that outline the concept and approach to satisfy the technical and
performance requirements of the Government for a task order. Based on criteria that were provided to the
contractors, the program office then selects one contractor to receive the task order. The down-selected
contractor must submit a full technical and cost proposal.

                                                   13
Issue Area 8. – Appropriate Use of Performance-Based Service
               Contracts
Criteria

The FAR Part 37, “Service Contracting,” requires the use of performance-based
acquisitions for services to the maximum extent practicable and states that services
should be obtained in the most cost-effective manner, without barriers to full and open
competition. A service contract is defined as a contract that directly engages the time and
effort of a contractor whose primary purpose is to perform an identifiable task rather than
to furnish an end item of supply. The FAR requires performance-based contracts for
services to include a performance work statement; measurable performance standards in
terms of quality, timeliness, and quantity; method of assessing contractor performance
against performance standards; and performance incentives where appropriate.

Results

In 13 of the 142 reports, we discussed the inappropriate use of performance-based service
contracts. The following are some examples.

      Navy Public Works Center, San Diego awarded a performance-based service
       contract to a contractor although Navy Public Works Center was unable to
       adequately assess the contractor’s performance on all performance requirements
       or relate workload to payments because actual workload during the 6-month base
       and the 1-year option period was significantly less than established in the
       performance work standards though the fixed payment remained the same. As a
       result, with the contract as currently structured, the Navy Public Works Center is
       not fully realizing the benefit of performance-based service acquisition, which is
       to maximize contractor performance and innovation at lower costs. (D-2007-079,
       4/3/2007)

      The Army and the Air Force have increased environmental insurance use; the
       Navy originally used environmental insurance, but has chosen to limit its use to
       early transfers of sites closed because of Base Realignment and Closure efforts.
       As early as February 2000, the Navy incorporated the use of environmental
       insurance with firm-fixed-price contracts awarded for environmental cleanups to
       encourage the application of performance-based contracting principles.
       Performance-based contracting is a contracting method that defines a service
       requirement in terms of performance objectives and provides the contractor with
       the latitude to determine how to meet those objectives. Using environmental
       insurance allows DoD to transfer portions of the risk of cost overruns and
       unexpected schedule changes to the contractor and the insurance provider. By
       DoD shifting the risk, the contractor is strongly motivated to complete the
       environmental cleanups in a timely and cost-efficient manner. (D-2006-080,
       4/27/2006)


                                            14
      Warner Robins Air Logistics Center contracting officials did not separately solicit
       the overhaul requirements included on the contract and did not consider a low-
       cost partnership with the Marine Corps Logistics Command in accordance with
       performance-based logistics policy. Marine Corps Logistics Command and Air
       Force cost analyses indicated that the Marine Corps Logistics Command could
       perform the vehicle overhaul for less than the contractor. (D-2006-059, 3/3/2006)

      DoD contracting officials continue to award and administer contracts for
       professional, administrative, and management support services without following
       prescribed procedures. As a result, contractors continued to receive
       noncompetitive contract awards to perform the same services they have provided
       for years. The Government often guarantees a profit by paying contractors on a
       cost-reimbursable basis without adequately determining whether prices are
       reasonable or whether contractors efficiently performed the contracted tasks.
       (D-2004-015, 10/31/2003)


Contract Administration and Funding
This part of the report will discuss the oversight and surveillance, inter-agency
contracting – military interdepartmental purchase requests, and potential Antideficiency
Act violations issues.


Issue Area 9. – Oversight and Surveillance
Criteria

The FAR covers oversight and surveillance in many sections depending on the type of
contract. Oversight ensures that contractors are providing timely and quality services and
helps mitigate any contractor performance problems. Surveillance is ongoing action
throughout the performance period of the contract to ensure the Government receives the
goods and services it contracted for in a timely manner, including creating an official
record documenting that the contractor’s performance was acceptable or unacceptable.

The following are some FAR regulations that address oversight and surveillance.


          FAR 4.803(b), “Contract Administration Office,” states that production
           surveillance records and quality assurance records should be a part of the
           contract file.

          FAR 16.301-3(a) (2), “Limitations,” states that cost reimbursement contracts
           may be used only when appropriate Government surveillance during
           performance will provide reasonable assurance that efficient methods and
           effective cost controls are used.



                                           15
          FAR 42.101, “Contract Administration and Audit Services,” prescribes the
           policies and procedures for assigning and performing contract administration
           and audit services.

          FAR 46.103, “Contracting Officer Responsibilities,” states that contracting
           offices are responsible for receiving technical requirements and any
           specifications for inspection, testing, and other contract quality requirements
           essential to ensure the integrity of the supplies or services prescribing contract
           quality requirements.

          FAR 46.401(a), “Government Contract Quality Assurance,” states that a
           quality assurance surveillance plan should be prepared in conjunction with the
           preparation of the statement of work.

          DFARS 201.6, “Contracting Authority and Responsibilities,” states that
           contracting officers may designate qualified personnel as their authorized
           representatives to assist in either technical monitoring or administration of the
           contract. To assist in administrative duties, contracting officers are authorized
           to designate qualified personnel as contracting officer representatives. The
           designated representative must act as eyes and ears for the contracting officer.
           The designated representative must be properly trained and designated in
           writing and maintain contract surveillance files. The designation letter must
           specify the extent and limitations of the technical representative’s authority to
           act on behalf of the contracting officer. The primary role of the contracting
           officer representative is to provide technical clarification and to monitor
           contract performance closely to ensure the Government pays only for the
           services and materials under the contract. The Government should ensure that
           all contracting officer representative directions are in writing to avoid
           misunderstandings, disagreements, unnecessary costs; and to maintain proper
           control of the contract and adequate file documentation.

Results

In 55 of the 142 reports, we discussed the lack of oversight or inadequate surveillance
plans for DoD contracts. The following are some examples of oversight and surveillance
issues.

      The Air Force Research Laboratory guidance for the management and oversight
       of the acquisition of services process is a generic document that does not specify
       how surveillance tasks are to be completed and does not address surveillance that
       would be necessary beyond reviewing and analyzing the contractor-provided
       reports. Air Force Research Laboratory contracting officers used a generic policy
       for contract surveillance that was based on past practices and involved accepting
       contractor-submitted project, technical, and fund status reports without
       verification. As a result, the laboratories put the Government at risk of spending
       more than necessary. (D-2007-130, 9/28/2007)

      U.S. Army Intelligence and Information Command awarded a time-and-materials
       contract action to provide information operations system engineering, integration,
       operational, program management, and technical support to the Army’s Land

                                             16
       Information Warfare Activity; however, the designated contracting officer
       representative did not prepare a surveillance plan or performance metrics.
       (D-2006-010, 10/28/2005)

      Air Force did not provide adequate oversight of the decentralized Network-
       Centric Solutions Contract task orders because the program officials did not
       establish an adequate oversight program in accordance with the Air Force Federal
       Acquisition Regulation Supplement section 5316.505-90, “Decentralized
       Ordering.” This section states that for contracts that authorize decentralized
       ordering, the contracting officer with the overall responsibility for the contract
       must ensure that adequate control procedures are in place before any orders are
       authorized and exercise oversight of decentralized ordering. The program
       officials stated the contracting office does not oversee the decentralized
       contracting officers because they are warranted and hold a high amount of
       integrity to ensure their work is accurate. As a result, the Air Force Network-
       Centric Solutions program office did not ensure that the decentralized task orders
       were within the scope of the contract and that the task orders followed applicable
       DoD and Federal policies. (D-2007-106, 6/29/2007)

      Contracting officials at the major range and test facilities base did not have
       evidence of adequate surveillance plans or that oversight had occurred for 6 of
       10 contracts. This occurred because the contracting officials did not follow the
       FAR and other best practices for the service contracts. FAR 16.301-3(a) (2),
       “Limitations,” states that cost reimbursement contracts may be used only when
       “appropriate Government surveillance during performance will provide
       reasonable assurance that efficient methods and effective cost controls are used.”
       As a result, the Government continued to use high-risk cost reimbursement
       contracts without following regulations in place to control costs or monitor
       performance. (D-2007-036, 12/27/2006)


Issue Area 10. - Inter-Agency Contracting or Military
                 Interdepartmental Purchase Requests
Criteria

The military interdepartmental purchase request (MIPR), DD Form 448, is issued by one
Military Service to another to procure services, supplies, or equipment. The supplying
Service provides a DD Form 448-2, “Acceptance of MIPR,” agreeing to provide the
requested services or supplies. DoD may also issue the MIPR to non-DoD agencies.
DoD typically issues MIPRs under the authority of the Economy Act, funded on a direct
citation or reimbursable basis.

The Economy Act is defined in the FAR, Subpart 17.5, “Interagency Acquisitions Under
the Economy Act.” The Act defines an interagency acquisition as one agency obtaining


                                           17
supplies and services from another agency. The FAR states that the procedures for
Economy Act orders, which are issued between major organizational units within an
agency, are to be addressed in agency regulations.

Results

In 20 reports, we discussed the inappropriate use of MIPRs by DoD agencies and the
Military Departments when ordering supplies from other Government agencies. The
following are some examples of inappropriate management of MIPRs.

      The DoD Office of Inspector General and the General Services Administration
       conducted an interagency audit of DoD purchases made by the General Services
       Administration. The DoD Office of Inspector General determined that
       regulations were unclear and found mismanagement and lack of acquisition
       planning for the funds transferred to the General Services Administration, which
       resulted in DoD funds totaling between $1 to $2 billion expiring or otherwise
       becoming unavailable to support DoD operations. That finding prompted the
       Office of Inspector General management to conduct a series of audits. One of the
       audits was on the Missile Defense Agency use of MIPRs. The finding of the audit
       was that the Missile Defense Agency did not properly manage the outgoing and
       incoming MIPR processes and did not follow applicable regulations.
       (D-2007-007, 10/30/2006 and D-2007-117, 8/20/2007)

      Headquarters, Special Operations Command did not have adequate internal
       controls for initiation and approval for its outgoing MIPRs. Special Operations
       Command did not determine that Economy Act order purchases were in the best
       interest of the Government and served a bona fide need. (D-2007-109, 7/9/2007)

      Special Operation Forces Activity contract files did not contain either
       Determinations and Findings documents or support agreements (determination
       documents) for Economy Act orders received from requesting organizations for
       the 2003 contracts using MIPRs. This occurred because Special Operation Forces
       Support Activity contracting officials used outdated guidance and did not comply
       with Federal and DoD guidance to require determination documents. As a result,
       the Special Operation Forces Support Activity contracting officials did not have
       proof that the requesting organizations determined that the Economy Act orders
       were in the best interest of the Government before submitting the MIPRs.
       (D-2007-100, 5/18/2007)

      Defense Intelligence Agency (DIA) needed to improve acquisition planning
       documentation and ensure funds were properly used and accounted for correctly
       when using MIPRs for acquiring goods and services. The agency issued MIPRs
       without ensuring that the procurements were in the best interest of the
       Government. The agency did not always comply with established criteria for the
       procurement of, and accounting for, goods and services. DIA did not adequately
       plan the acquisitions, may have improperly used funds, and did not properly

                                          18
       record and account for transactions in its accounting system. The documentation
       should include written acquisition plans that address the total cost of the
       requirements and the criteria for acceptance of goods and services, cost
       comparisons between contractor and Government estimates for performance of
       services, and complete determination and finding documentation to demonstrate
       that the purchases were made in the best interest of the Government as required
       by the Economy Act. Defense Intelligence Agency may have inappropriately
       used Operational and Maintenance appropriations to fund four MIPRs. (D-2007-
       098, 5/18/2007)

      Defense Components did not always define requirements with sufficient
       specificity to meet legal requirements for forming a valid obligation. This
       practice permitted the MIPR to be used like a deposit slip for a bank rather than a
       well-defined list of supplies and services to be procured.
       (D-2007-044, 1/16/2007)

Issue Area 11. - Potential Antideficiency Act Violations
Criteria

Congress passed the Antideficiency Act to curb the fiscal abuses that frequently created
so-called “coercive deficiencies” that required supplemental appropriations. The
Antideficiency Act consists of several statutes that mandate administrative and criminal
sanctions for the unlawful use of appropriate funds (31 U.S.C. 1342, 1350, 1351, and
1511-1519). Violations of other laws may trigger violations of Antideficiency Act
provisions, such as the “bona fide” needs rule,” 31 U.S.C. 1502(a). Furthermore,
31 U.S.C. 1341, “Limitations on Expending and Obligating Amount,” January 1998,
states that a violation of the Antideficiency Act occurs when the Government authorizes
an obligation exceeding an amount available in an appropriation.

We have issued 27 reports that discussed potential violations of the Antideficiency Act.
Of the 27 reports, 18 were the result of problems discussed in Issue Area 10, which is
interagency contracting and the ineffective management of MIPRs. The other
nine reports discuss potential violations of the Antideficiency Act at specific Defense
agencies or Military commands that resulted from ineffective acquisition and contract
management actions. The following are examples of potential violations of the
Antideficiency Act.

      Various public laws have directed the DoD IG in conjunction with non-DoD
       agency IGs to assess the effectiveness of the policies, procedures, and internal
       controls applicable to the procurement of property and services on behalf of DoD
       by non-Defense agencies. Over the last 4 years, the DoD IG has issued 10 reports
       addressing these issues. Our reports identified non-DoD agencies that processed
       approximately 91,000 purchases for DoD from FY 2004 through FY 2007 valued
       at approximately $12.0 billion. We reviewed 658 purchases valued at
       approximately $1.3 billion and identified 493 potential Antideficiency Act

                                           19
       violations, valued at $518.5 million relating to the funding of DoD purchases
       made at or by non-DoD agencies. Our audits revealed that DoD organizations
       continued to violate the bona fide needs rule and purpose statute when making
       purchase through non-DoD agencies. Specifically, DoD organizations used prior
       year funds to purchase current year requirements, and in some instances, used the
       wrong type of funds to procure goods and services. DoD organizations prepared
       vague and incomplete MIPRs when transferring funds to non-DoD agencies.
       Additionally, DoD organizations made advance payments to non-DoD agencies
       for goods and services not received. (D-2008-082, 4/25/2008)

      The Army did not adequately execute MIPRs and monitor account balances for 54
       of the 118 outgoing requests. The requesting organizations are responsible for
       ensuring that fiscal limits of appropriations are followed, obligations are valid and
       timely, and authorized balances are not exceeded. Of the 54 requests, 16 had
       multiple execution and monitoring issues. Of the 118 requests, 2 were not
       executed within their applicable fiscal limitations. The Army did not record
       obligations for the requests in compliance with 31 U.S.C. 1502(a), which states
       that an appropriation is not available for expenditure beyond the period authorized
       by law. As a result, Army potentially violated the Antideficiency Act. A
       violation of the Antideficiency Act occurs when an obligation or expenditure
       exceeds the amount available in its apportionment. (D-2007-075, 3/22/2007)

      The National Geospatial-Intelligence Agency lacked adequate internal controls
       and supporting documentation over MIPRs. This significantly increased the risk
       that the 58 sampled purchase requests issued to acquire goods and services did not
       satisfy bona fide needs, were not based on best value, and did not comply with
       appropriation laws, and thus could have violated the Antideficiency Act.
       (D-2007-057, 2/13/2007)

Overarching Issues
Issue Area 12. - Material Internal Control Weaknesses
Criteria

DoDI 5010.40, “Managers’ Internal Control (MIC) Program Procedures,” dated
January 4, 2006, defines internal controls as the organization, policies, and procedures
that help program and financial managers to achieve results and safeguard the integrity of
their programs. The Instruction also defines a material weakness in internal controls as a
reportable condition that is significant enough to report to the next higher level.


Results

In 58 of the 142 reports, we identified material internal control weaknesses in the
programs or operations. Examples of these weaknesses include:

                                            20
      Lack of procedures to periodically review files to update, organize, and add or
       remove data as necessary to maintain complete files;
      No tracking systems to ensure pre-negotiation reviews were conducted in a timely
       manner;
      Lack of procedures to verify that undefinitized contract actions were approved
       only by authorized individuals; and
      Lack of policies and procedures to provide facilities to contactors only when
       approved in advance.

The following are examples of weaknesses that occurred.

    Although the internal controls outlined in the DoD 5000 series and the FAR were
     adequate for controlling the Family of Medium Tactical Vehicles Program, the
     Army acquisition officials did not follow the guidance. Specifically, the
     administrative contracting officer did not adhere to contract provisions when
     conditionally accepting vehicles that had not completed first article testing and
     paying the contractor up to 100 percent for conditionally accepted vehicles that
     were authorized by the procuring contracting officer or authorized by the contract
     terms. As a result, the Army prematurely paid the contractor $7.1 million for
     vehicles the Army could not immediately use. (D-2008-038, 12/21/2007)

      The Defense Logistics Agency did not have internal control procedures for
       procurement to determine the independence of offerors or dealers for
       noncompetitive items before relying on the offered prices to determine price
       reasonableness, perform an effective cost and price analysis of the subcontractors’
       price, and ensure that waivers from cost or pricing data are appropriate and
       comply with legislative and Departmental guidance. If these procedures are
       implemented, potential recurring monetary benefits of about $2.7 million can be
       achieved. (D-2008-048, 2/6/2008)

      Military Departments did not have the internal controls over contractor past
       performance information including procedures to initiate registration of contracts
       in the Contractor Performance Assessment Reporting System, procedures to
       prepare performance assessment reports in a timely manner, and procedures to
       write detailed and qualified assessments of performance information.
       Improvements in these areas will improve relevance of contractor past
       performance information. (D-2008-057, 2/29/2008)

      DoD organizations are required to ensure the acquisition strategy is in the best
       interest of the Government. The sites visited encountered problems while
       implementing and executing policy. The contracting, financial, and accounting
       officials did not always comply with the regulations and statutes. Material
       internal control weaknesses were identified in market research because the most
       cost-effective contracting method to fulfill DoD requirements was not
       documented in price reasonableness, because inadequate analyses and support

                                           21
       existed for task order award prices, and in surveillance because DoD and Fed
       Source did not establish sound oversight plans to monitor contractor performance.
       (D-2008-050, 2/11/2008)

Although we identified the material weaknesses, we are making no recommendations
because the recommendations in each report, if implemented, should correct the material
weaknesses identified in each of the respective reports.

Conclusions
The DoD IG continues to demonstrate through audit coverage that a strong emphasis on
management oversight, control, and enforcement of contracting policies and procedures
is needed to ensure that DoD is properly awarding and administering contracts, acquiring
goods and services, and using funds correctly. Furthermore, the DoD IG results continue
to show that each acquisition dollar that is not prudently spent results in the unavailability
of that dollar to fund the top priorities of the Secretary of Defense and waste of valuable
taxpayer money.




                                             22
Appendix A. Scope and Methodology
This non-audit services report summarizes 142 final audit reports issued by DoD IG from
FY 2003 through FY 2008. Based on the audit objectives, scope, and conclusions, these
142 reports discussed issues that pertained to the acquisition or contract administration
function within DoD. We also compared our results with the DoD IG’s semiannual
reports to Congress to ensure a consistency of approach.

We reviewed the findings, conclusions, and recommendations contained in these
142 reports; however, we did not review the supporting documentation from any of these
reports. Based on our review, we grouped the deficiencies discussed in the 142 reports
into the following 12 issue areas:

                      1. Completeness of Acquisition Support Data

                      2. Sufficiency of Requirements

                      3. Adequacy of Contract Pricing

                      4. Commercial Acquisition

                      5. Sole-source Selection

                      6. Past Performance

                      7. Multiple-Award Contracting

                      8. Performance-Based Service Contracts

                      9. Oversight and Surveillance

                      10. Inter-Agency Contracting/Military Interdepartmental Purchase
                           Requests

                      11. Potential Antideficiency Act Violations

                      12. Material Internal Control Weaknesses



Use of Computer-Processed Data
We did not use computer-processed data to perform this audit.




                                           23
Prior Coverage

     During the last 5 years, the DoD IG issued one report on the summary of audit
     reports. Unrestricted DoD IG reports can be accessed at
     http://www.dodig.mil/audit/reports.

DoD IG
     DoD IG Report No. D-2008-086, “Challenges Impacting Operations Iraq
     Freedom and Enduring Freedom Reported by Major Oversight Organizations
     Beginning FY 2003 Through FY 2007,” July 18, 2008




                                        24
Appendix B. Issue Areas by Audit Report
                 1                    2                 3                    4                     5                     6                  7            8                   9                10                  11                   12




                                                                                         Sole-Source Selection
                                                    Adequacy of Contract
             Acquisition Support




                                                                                                                                                      Performance-Based




                                                                                                                                                                                             Contracting/MIPRS


                                                                                                                                                                                                                 Antideficiency Act


                                                                                                                                                                                                                                      Control Weakness
                                                                                                                 Past Performance
             Completeness of




                                                                                                                                                                          Surveillance and
                                                                                                                                                      Service Contract




                                                                                                                                                                                                                                      Material Internal
                                                                                                                                     Multiple-Award
                                   Requirements
                                   Sufficiency of




                                                                                                                                                                                             Inter-Agency
                                                                           Commercial
                                                                           Acquisition




                                                                                                                                                                          Oversight




                                                                                                                                                                                                                 Potential
 Report                                              Pricing
Numbers
D-2008-135                                                                                                                                                                   X
D-2008-134                           X
D-2008-129                           X                                                                                                                                       X                                                           X
D-2008-127                                                                                        X                                                                          X                                                           X
D-2008-122      X                                      X                                                                                                                                        X
D-2008-107      X                                      X                                                                                                                                                                                 X
D-2008-100      X                    X                 X                     X                    X                                                                                                                                      X
D-2008-099                                             X                                                                                                                                                                                 X
D-2008-097      X                                      X                                                                                                                     X                                                           X
D-2008-094      X                                      X                                          X
D-2008-089                           X
D-2008-086                                                                                                                                                                   X
D-2008-082                                                                                                                                                                                      X                   X                    X
D-2008-066                                             X                                          X                                        X                                                    X                   X                    X
D-2008-064                                                                                                                                 X
D-2008-057      X                                      X                                                                X                                                                                                                X
D-2008-051                                             X                                                                                                 X
D-2008-050      X                                      X                                                                                                                     X                  X                   X                    X
D-2008-048      X                                      X                                          X                                                                                                                                      X
D-2008-038                                                                                                                                                                 X                                                             X
D-2008-037      X                                      X                                                                                                                   X
D-2008-036      X                                      X                                          X                     X                                                  X                    X                   X                    X
D-2008-032                           X                                                                                                                                     X                                                             X
D-2008-030                                                                                                                                                                 X                                                             X
D-2008-022      X                                      X                     X                    X                                        X                               X                    X                   X                    X
D-2008-007                           X                                                                                                     X             X                 X                                                             X
   26         11                     6               14                      2                     7                     2                 4             2                 13                   6                   5                  17

D-2007-130      X                                                                                                                                                            X                                                           X
D-2007-128                           X                 X                                          X
D-2007-124                                                                                                                                                                   X                  X                   X
D-2007-119                                                                                        X                                                      X                                                                               X
D-2007-118      X
D-2007-117      X                    X                                                                                                                                                          X                                        X
D-2007-115      X                    X                                                                                                                                                                                                   X
D-2007-112      X                    X
D-2007-110                           X                                                                                                                                                                                                   X
D-2007-109      X                                                                                                                                                                               X                   X                    X

                                                                                                                                    25
                 1                    2                 3                    4                     5                     6                  7            8                   9                10                  11                   12




                                                                                         Sole-Source Selection
                                                    Adequacy of Contract
             Acquisition Support




                                                                                                                                                      Performance-Based




                                                                                                                                                                                             Contracting/MIPRS


                                                                                                                                                                                                                 Antideficiency Act


                                                                                                                                                                                                                                      Control Weakness
                                                                                                                 Past Performance
             Completeness of




                                                                                                                                                                          Surveillance and
                                                                                                                                                      Service Contract




                                                                                                                                                                                                                                      Material Internal
                                                                                                                                     Multiple-Award
                                   Requirements
                                   Sufficiency of




                                                                                                                                                                                             Inter-Agency
                                                                           Commercial
                                                                           Acquisition




                                                                                                                                                                          Oversight




                                                                                                                                                                                                                 Potential
                                                     Pricing
 Report
Numbers
D-2007-107      X                                      X                     X                    X                     X                                                                                                                X
D-2007-106                           X                                                                                                     X                                 X                                                           X
D-2007-103      X                                      X
D-2007-100                                                                                                                                                                                      X                   X                    X
D-2007-098                                             X                                                                                                                     X                  X                   X                    X
D-2007-084      X                    X                                                                                                                                       X                                                           X
D-2007-079      X                    X                 X                                          X                                                      X                   X
D-2007-078                           X                 X
D-2007-075                                                                                                                                                                                      X                   X                    X
D-2007-066      X                    X                                                                                                                                       X
D-2007-062                                                                                                                                                                                      X                                        X
D-2007-057      X                                                                                                                                                                               X                   X                    X
D-2007-055                                                                                        X                                                                          X
D-2007-047      X
D-2007-044      X                                      X                                          X                                        X                                 X                  X                   X                    X
D-2007-042                                                                                                                                                                                                          X                    X
D-2007-038
D-2007-036      X                                      X                                                                                                                     X
D-2007-032      X                                      X                                          X                                                                          X                  X                   X                    X
D-2007-026                           X                                                                                                                                                                                                   X
D-2007-025                           X                 X                                                                                                                     X                                      X                    X
D-2007-023      X                                                                                                                          X                                                                        X                    X
D-2007-009                                                                                                                                                                   X
D-2007-008                                                                                                                                                                   X
D-2007-007    X                                                                                   X                                                                          X                  X                   X
D-2007-005    X                     X
   36         19                    13               10                      1                     8                     1                  3            2                 16                 11                  12                   22

D-2006-123      X                    X                                                                                                                                                                                                   X
D-2006-122                                             X                     X                    X
D-2006-115                                                                   X
D-2006-111      X                                      X                                          X                                                                          X                                                           X
D-2006-109
D-2006-105                           X                                                                                                                   X
D-2006-104      X                                                                                                       X
D-2006-103                                                                                                                                               X                   X
D-2006-102                                                                                                                                                                                      X                   X
D-2006-101      X
D-2006-100                           X
D-2006-097      X                                                                                                       X
D-2006-093      X                                                            X                                                                                               X                                      X
                                                                                                                                    26
                 1                    2                 3                    4                     5                     6                  7            8                   9                10                  11                   12




                                                                                         Sole-Source Selection
                                                    Adequacy of Contract
             Acquisition Support




                                                                                                                                                      Performance-Based




                                                                                                                                                                                             Contracting/MIPRS


                                                                                                                                                                                                                 Antideficiency Act


                                                                                                                                                                                                                                      Control Weakness
                                                                                                                 Past Performance
             Completeness of




                                                                                                                                                                          Surveillance and
                                                                                                                                                      Service Contract




                                                                                                                                                                                                                                      Material Internal
                                                                                                                                     Multiple-Award
                                   Requirements
                                   Sufficiency of




                                                                                                                                                                                             Inter-Agency
                                                                           Commercial
                                                                           Acquisition




                                                                                                                                                                          Oversight




                                                                                                                                                                                                                 Potential
                                                     Pricing
 Report
Numbers
D-2006-088      X
D-2006-087                           X                                                                                                                                                                                                   X
D-2006-080                                             X                                                                                                 X
D-2006-078                           X                                                                                                                                                                                                   X
D-2006-075                                             X                     X
D-2006-073      X                                      X                                                                                                                     X
D-2006-066                                                                   X                    X
D-2006-065                           X                 X                     X
D-2006-061      X                                                                                                       X
D-2006-059                                             X                                          X                                                      X
D-2006-058      X
D-2006-055      X                                                                                 X
D-2006-029                                                                                                                                                                                                          X                    X
D-2006-010                                                                                                              X                                X                   X                                                           X
D-2006-007                           X                 X                                                                                   X                                                                        X
D-2006-006                                             X                                          X                                                                          X
D-2006-004                           X                                                                                                                                                                                                   X
D-2006-001                           X                                                                                                                                       X
   31         11                     9                  9                    6                     6                     4                  1            5                   7                  1                   4                    7

D-2005-098
D-2005-096      X                    X                                                                                                                                                          X                   X
D-2005-091                                                                                        X                                                                          X
D-2005-037      X                                                                                                                                                                                                                        X
D-2005-028                           X
D-2005-027      X                                      X                                                                                                                     X
D-2005-009                           X                 X                                                                                                                     X
D-2005-005                           X                 X                                                                X
    8            3                   4                 3                     0                     1                    1                   0            0                   3                  1                   1                    1

D-2004-113      X                    X
D-2004-112      X                                                                                                                                                            X                                                           X
D-2004-111      X                                      X                                                                                   X                                                                                             X
D-2004-110                                                                                                                                               X                   X
D-2004-104      X                                                                                 X                                                                                                                                      X
D-2004-103      X                                      X                                          X
D-2004-102                           X                                                                                                                                       X
D-2004-094                                                                                                                                                                   X                                                           X
D-2004-093      X                    X                 X                                          X                                        X                                 X                                                           X
D-2004-089                           X                                                                                                                                       X
D-2004-084                                                                                                                                                                                                          X

                                                                                                                                    27
                 1                    2                 3                    4                     5                     6                  7            8                   9                10                  11                   12




                                                                                         Sole-Source Selection
                                                    Adequacy of Contract
             Acquisition Support




                                                                                                                                                      Performance-Based




                                                                                                                                                                                             Contracting/MIPRS


                                                                                                                                                                                                                 Antideficiency Act


                                                                                                                                                                                                                                      Control Weakness
                                                                                                                 Past Performance
             Completeness of




                                                                                                                                                                          Surveillance and
                                                                                                                                                      Service Contract




                                                                                                                                                                                                                                      Material Internal
                                                                                                                                     Multiple-Award
                                   Requirements
                                   Sufficiency of




                                                                                                                                                                                             Inter-Agency
                                                                           Commercial
                                                                           Acquisition




                                                                                                                                                                          Oversight




                                                                                                                                                                                                                 Potential
                                                     Pricing
 Report
Numbers
D-2004-073                                             X
D-2004-070      X
D-2004-069      X                                      X
D-2004-064      X                    X                 X                     X                    X
D-2004-060      X
D-2004-057      X                    X                 X                                          X                                                                          X
D-2004-056                                                                                                                                                                   X
D-2004-055                                             X                                          X
D-2004-052      X                    X                 X                                          X
D-2004-047                           X
D-2004-046      X                    X
D-2004-037                                                                                                                                                                   X
D-2004-020                           X                                                                                                                                                                              X
D-2004-015      X                    X                 X                                          X                                                      X                   X                                                            X
D-2004-012      X                                                                                 X
D-2004-006                                                                                                                                                                 X
   27         15                    11               10                      1                     9                     0                  2            2                 11                   0                   2                 6

D-2003-120      X                                      X                                                                                                 X                                                                                X
D-2003-115                                                                                                                                                                   X
D-2003-113      X                    X
D-2003-112                                                                                                                                                                   X                                                            X
D-2003-106                           X                                                                                                                   X                                                                                X
D-2003-099      X                                      X
D-2003-090      X                    X                 X                                                                                                                                        X                   X                     X
D-2003-088                                                                                                                                                                   X
D-2003-083                           X                                                                                                                                                                                                    X
D-2003-082                                                                                                                                                                                                          X
D-2003-077                           X                 X                                                                                                                     X                                      X
D-2003-056      X                    X                 X
D-2003-029      X                                      X                                          X
D-2003-016                           X                                                                                                                                       X
   14            6                   7                  6                    0                     1                     0                  0            2                   5                  1                   3                     5

   142        65                    50               52                    10                32                          8             10              13                  55                 20                  27                   58




                                                                                                                                    28
Appendix C. DoD Inspector General Reports

The DoD IG issued 142 audit reports that covered some aspect of the management of the
acquisition and contract administration functions within the Military Departments and
Defense agencies. To obtain electronic copies of DoD IG reports, please visit
http://www.dodig.mil/Audit/reports/index.html.

DoD IG Report No. D-2008-135, “Requiring Radio Frequency Identification in Contracts
for Supplies,” September 29, 2008

DoD IG Report No. D-2008-134, “Acquisition of the B-1 Fully Integrated Data Link,”
September 22, 2008

DoD IG Report No. D-2008-129, “Acquisition of the Army Airborne Surveillance,
Target Acquisition, and Minefield Detection System,” September 10, 2008

DoD IG Report No. D-2008-127, “Spider XM-7 Network Command Munition,”
August 29, 2008

DoD IG Report No. D-2008-122, “Follow-up on DoD Purchases Made Through the
Department of the Interior,” August 18, 2008

DoD IG Report No. D-2008-107, “Contracts Issued by TACOM Life Cycle Management
Command to BAE Systems Land and Armaments, Ground Systems Division,” July 3,
2008

DoD IG Report No. D-2008-100, “Contract Procedures for Educational Support Services
Acquired by the National Defense University,” June 13, 2008

DoD IG Report No. D-2008-099, “Effect of Payments Into Boeing Pension Funds on
Economic Price Adjustment Clauses in DoD Contracts,” May 28, 2008

DoD IG Report No. D-2008-097, “Hurricane Relief Effort Costs on the Navy
Construction Capabilities Contract,” May 23, 2008

DoD IG Report No. D-2008-094, “Air Force Air Combat Command Contracts,”
May 20, 2008

DoD IG Report No. D-2008-089, “Planning Armor Requirements for the Family of
Medium Tactical Vehicles,” May 9, 2008

DoD IG Report No. D-2008-086,” Challenges Impacting Operations Iraqi Freedom and
Enduring Freedom Reported by Major Oversight Organizations Beginning FY 2003
through FY 2007,” July 18, 2008


                                         29
DoD IG Report No. D-2008-082, “Summary Report on Potential Antideficiency Act
Violations Resulting From DoD Purchases Made Through Non-DoD Agencies (FY 2004
Through FY 2007),” April 25, 2008

DoD IG Report No. D-2008-066, “FY 2006 and FY 2007 DoD Purchases Made Through
the Department of the Interior,” March 19, 2008

DoD IG Report No. D-2008-064, “Defense Hotline Allegations Concerning the
Biometric Identification System for Access Omnibus Contract,” March 18, 2008

DoD IG Report No. D-2008-057, “Contractor Past Performance Information,”
February 29, 2008

DoD IG Report No. D-2008-051, “Surface Deployment and Distribution Command
Hawaii/Guam Shipping Agreement,” February 19, 2008

DoD IG Report No. D-2008-050, “Report on FY 2006 DoD Purchases Made Through the
Department of the Treasury,” February 11, 2008

DoD IG Report No. D-2008-048, “Procuring Noncompetitive Spare Parts Through an
Exclusive Distributor,” February 6, 2008

DoD IG Report No. D-2008-038, “The Army’s Procurement and Conditional Acceptance
of Medium Tactical Vehicles,” December 21, 2007

DoD IG Report No. D-2008-037, “U.S. Army Corps of Engineers Administration of
Emergency Temporary Roofing Repair Contracts,” December 20, 2007

DoD IG Report No. D-2008-036, “FY 2006 DoD Purchases Made Through the U.S.
Department of Veterans Affairs,” December 20, 2007

DoD IG Report No. D-2008-032, “Acquisition of the Surface-Launched Advanced
Medium Range Air-to-Air Missile,” December 6, 2007

DoD IG Report No. D-2008-030, “Management of the Defense Security Assistance
Management System Training Module,” December 6, 2007

DoD IG Report No. D-2008-022, “FY 2006 DoD Purchases Made Through the National
Institutes of Health,” November 15, 2007

DoD IG Report No. D-2008-007, “Task Orders on the Air Force Network-Centric
Solutions Contract,” October 25, 2007

DoD IG Report No. D-2007-130, “Contracting Practices at Air Force Laboratory
Facilities,” September 28, 2007


                                         30
DoD IG Report No. D-2007-128, “Hotline Allegations Concerning the Defense Threat
Reduction Agency Advisory and Assistance Services Contract,” September 26, 2007

DoD IG Report No. D-2007-124, “Purchases Made Using the U.S. Joint Forces
Command Limited Acquisition Authority,” September 27, 2007

DoD IG Report No. D-2007-119, “Procurement of Propeller Blade Heaters for the
C-130 Aircraft,” August 27, 2007

DoD IG Report No. D-2007-118, “Contract Administration of the Ice Delivery Contract
Between International American Products, Worldwide Services and the U.S. Army Corps
of Engineers During the Hurricane Katrina Recovery Effort,” August 24, 2007

DoD IG Report No. D-2007-117, “Missile Defense Agency Purchases for and from
Governmental Sources,” August 20, 2007

DoD IG Report No. D-2007-115, “Army Information Technology Enterprise
Solutions-2 Services Contract,” August 9, 2007

DoD IG Report No. D-2007-112, “World-Wide Satellite Systems Program,” July 23,
2007

DoD IG Report No. D-2007-110, “Identification and Reporting of Improper Payments
through Recovery Auditing,” July 9, 2007

DoD IG Report No. D-2007-109, “Special Operations Command Governmental
Purchases,” July 9, 2007

DoD IG Report No. D-2007-107, “Procurement Policy for Armored Vehicles,” June 27,
2007

DoD IG Report No. D-2007-106, “Air Force Network-Centric Solutions Contract,”
June 29, 2007

DoD IG Report No. D-2007-103, “Air Force KC-X Aerial Refueling Tanker Aircraft
Program,” May 30, 2007

DoD IG Report No. D-2007-100, “Contract for Logistics Support Services for Special
Operations Forces,” May 18, 2007

DoD IG Report No. D-2007-098, “Use and Control of Intragovernmental Purchases at the
Defense Intelligence Agency,” May 18, 2007

DoD IG Report No. D-2007-084, “Acquisition of the Navy Rapid Airborne Mine
Clearance System,” April 11, 2007



                                         31
DoD IG Report No. D-2007-079, “Performance-Based Service Contract for
Environmental Services at the Navy Public Works Center, San Diego, California,”
April 3, 2007

DoD IG Report No. D-2007-078, “Award Practices for the C-17 Globemaster III
Sustainment Partnership Contract,” April 9, 2007

DoD IG Report No. D-2007-075, “Department of Army Purchases from Governmental
Sources,” March 22, 2007

DoD IG Report No. D-2007-066, “Navy Acquisition Executive’s Management Oversight
and Procurement Authority for Acquisition Category I and II Programs,” March 9, 2007

DoD IG Report No. D-2007-062, “Department of Navy Purchases for and from
Governmental Sources,” February 28, 2007

DoD IG Report No. D-2007-057, “Use and Controls over Military Interdepartmental
Purchase Requests at the National Geospatial-Intelligence Agency,” February 13, 2007

DoD IG Report No. D-2007-055, “Contract Administration of the Water Delivery
Contract Between the Lipsey Mountain Spring Water Company and the United States
Army Corps of Engineers,” February 5, 2007

DoD IG Report No. D-2007-047, “Air Force Acquisition Executive’s Management
Oversight and Procurement Authority for Acquisition Category I and II Programs,”
January 23, 2007

DoD IG Report No. D-2007-044, “FY 2005 DoD Purchases Made Through the
Department of the Interior,” January 16, 2007

DoD IG Report No. D-2007-042, “Potential Antideficiency Act Violations on DoD
Purchases Made Through Non-DoD Agencies,” January 2, 2007

DoD IG Report No. D-2007-038, “U.S. Army Corps of Engineers Operation Blue Roof
Project in Response to Hurricane Katrina,” December 22, 2006

DoD IG Report No. D-2007-036, “Contracting Practices at the Major Range and Test
Facilities Base,” December 27, 2006

DoD IG Report No. D-2007-032, “FY 2005 DoD Purchases Made Through the
Department of the Treasury,” December 8, 2006

DoD IG Report No. D-2007-026, “Competition of the 5.56-Millimeter Carbine,”
November 22, 2006




                                          32
DoD IG Report No. D-2007-025, “Acquisition of the Pacific Mobile Emergency Radio
System,” November 22, 2006

DoD IG Report No. D-2007-023, “FY 2005 DoD Purchases Made Through the National
Aeronautics and Space Administration,” November 13, 2006

DoD IG Report No. D-2007-009, “Internal Controls Over Inventory Stored at Defense
Logistics Agency Distribution Depots,” November 1, 2006

DoD IG Report No. D-2007-008, “Acceptance and Surveillance of F-16 Mission
Training Center Simulation Services,” November 1, 2006

DoD IG Report No. D-2007-007, “FY 2005 DoD Purchases Made Through the General
Services Administration,” October 30, 2006

DoD IG Report No. D-2007-005, “Army Acquisition Executive’s Management Oversight
and Procurement Authority for Acquisition Category I and II Programs,” October 12,
2006

DoD IG Report No. D-2006-123, “Program Management of the Purchase Card Program
at the North American Aerospace Defense Command and the United States Northern
Command,” September 28, 2006

DoD IG Report No. D-2006-122, “Commercial Contract for Noncompetitive Spare Parts
With Hamilton Sundstrand Corporation,” September 29, 2006

DoD IG Report No. D-2006-115, “Commercial Contracting for the Acquisition of
Defense Systems,” September 29, 2006

DoD IG Report No. D-2006-111, “Expanded Micro-Purchase Authority for Purchase
Card Transactions Related to Hurricane Katrina,” September 27, 2006

DoD IG Report No. D-2006-109, “Response to Congressional Requests on the Water
Delivery Contract Between the Lipsey Mountain Spring Water Company and the United
States Army Corps of Engineers,” August 29, 2006

DoD IG Report No. D-2006-105, “Implementation of Performance-Based Logistics for
the Joint Surveillance Target Attack Radar System,” August 9, 2006

DoD IG Report No. D-2006-104, “Contract Award Process for the Financial Information
Resource System,” August 3, 2006

DoD IG Report No. D-2006-103, “The H-60 SeaHawk Performance-Based Logistics
Program,” August 1, 2006




                                        33
DoD IG Report No. D-2006-102, “Marine Corps Governmental Purchases,” July 31,
2006

DoD IG Report No. D-2006-101, “Procurement Procedures Used for C-17 Globe-
master III Sustainment Partnership Total System Support,” July 21, 2006

DoD IG Report No. D-2006-100, “Procurement Procedures Not Used for Next
Generation Small Loader Contracts,” August 1, 2006

DoD IG Report No. D-2006-097, “Source Selection for the National Polar-Orbiting
Operational Environmental Satellite System – Conical Microwave Imager/Sounder,”
July 10, 2006

DoD IG Report No. D-2006-093, “Contracting and Funding for the C-130J Aircraft
Program,” June 21, 2006

DoD IG Report No. D-2006-088, “Adjusting the Price and Restructuring the KC-135
Depot Maintenance Contract,” May 18, 2006

DoD IG Report No. D-2006-087, “Acquisition of the Objective Individual Combat
Weapon Increments II and III,” May 15, 2006

DoD IG Report No. D-2006-080, “Use of Environmental Insurance by the Military
Departments,” April 27, 2006

DoD IG Report No. D-2006-078, “Defense Information Systems Agency Encore II
Information Technology Solutions Contract,” April 21, 2006

DoD IG Report No. D-2006-075, “Acquisition of the Joint Primary Aircraft Training
System,” April 12, 2006

DoD IG Report No. D-2006-073, “Report on DoD Acquisition Workforce Count,”
April 17, 2006

DoD IG Report No. D-2006-066, “Report on the Procurement Processes and Procedures
for the C-40 Lease and Purchase Programs and C-22 Replacement Program (C-40),”
March 28, 2006

DoD IG Report No. D-2006-065, “Procurement Procedures Used for F-16 Mission
Training Center Simulator Services,” March 24, 2006

DoD IG Report No. D-2006-061, “Source Selection Procedures for the Navy
Construction Capabilities Contract,” March 3, 2006

DoD IG Report No. D-2006-059, “Air Force Procurement of 60K Tunner Cargo Loader
Contractor Logistics Support,” March 3, 2006

                                         34
DoD IG Report No. D-2006-058, “DoD Source Selection Procedures for the C-5
Avionics Modernization Program,” February 28, 2006

DoD IG Report No. D-2006-055, “Spare Parts Procurements From TransDigm, Inc.,”
February 23, 2006

DoD IG Report No. D-2006-029, “Report on Potential Antideficiency Act Violations
Identified During the Audit of the Acquisition of the Pacific Mobile Emergency Radio
System,” November 23, 2005

DoD IG Report No. D-2006-010, “Contract Surveillance for Service Contracts,”
October 28, 2005

DoD IG Report No. D-2006-007, “Contracts Awarded to Assist the Global War on
Terrorism by the U.S. Army Corps of Engineers,” October 14, 2005

DoD IG Report No. D-2006-006, “Management of the National Committee for Employer
Support of the Guard and Reserve,” October 6, 2005

DoD IG Report No. D-2006-004, “Acquisition of the Objective Individual Combat
Weapon,” October 7, 2005

DoD IG Report No. D-2006-001, “Audit of the Common Submarine Radio Room,”
October 3, 2005

DoD IG Report No. D-2005-098, “Contract Award and Administration for the Improved
Navy Lighterage System,” August 11, 2005

DoD IG Report No. D-2005-096, “DoD Purchases Made Through the General Services
Administration,” July 29, 2005

DoD IG Report No. D-2005-091, “Source Selection Decisions for the Air Force Small
Diameter Bomb Program,” July 15, 2005

DoD IG Report No. D-2005-037, “Implementation of Performance-Based Logistics for
the Javelin Weapon System,” March 7, 2005

DoD IG Report No. D-2005-028, “DoD Workforce Employed to Conduct Public-Private
Competitions Under the DoD Competitive Sourcing Program,” February 1, 2005

DoD IG Report No. D-2005-027, “Contract With Reliant Energy Solutions East,”
January 28, 2005

DoD IG Report No. D-2005-009, “Pueblo Chemical-Agent-Destruction Pilot Plant
Project,” November 1, 2004

                                          35
DoD IG Report No. D-2005-005, “Award of the Air Force F-15 Trainer Support
Contract,” October 21, 2004

DoD IG Report No. D-2004-113, “Acquisition of the EA-6B Improved Capability III
Program,” August 31, 2004

DoD IG Report No. D-2004-112, “Undefinitized Contractual Actions,” August 30, 2004

DoD IG Report No. D-2004-111, “Contracts Awarded by the Defense Threat Reduction
Agency in Support of the Cooperative Threat Reduction Program,” August 25, 2004

DoD IG Report No. D-2004-110, “The Military Departments’ Implementation of
Performance-Based Logistics in Support of Weapon Systems,” August 23, 2004

DoD IG Report No. D-2004-104, “Purchase Card Use and Contracting Actions at the
U.S. Army Corps of Engineers, Louisville District,” July 27, 2004

DoD IG Report No. D-2004-103, “Contract No. N00024-02-C-6165 for Consulting
Services at the Naval Shipbuilding, Conversion, and Repair Facility,” August 2, 2004

DoD IG Report No. D-2004-102, “Contracting for and Performance of the C-130J
Aircraft,” July 23, 2004

DoD IG Report No. D-2004-094, “Direct Care Medical Services Contracts,” June 24,
2004

DoD IG Report No. D-2004-093, “Acquisition and Management of Specialized Shipping
and Unit-Owned Containers and Related Accessories,” June 30, 2004

DoD IG Report No. D-2004-089, “Acquisition of the MH-47G Helicopter Service Life
Extension Program,” June 14, 2004

DoD IG Report No. D-2004-084, “Antideficiency Act Investigation of the Research,
Development, Test and Evaluation, Defense-Wide, Appropriation Account
97 FY 1989/1990 0400,” May 28, 2004

DoD IG Report No. D-2004-073, “Public-Private Competition for the Base Operating
Support Functions at Picatinny Arsenal, New Jersey,” April 22, 2004

DoD IG Report No. D-2004-070, “Small Business Administration Section 8(a) Program
Contracting Procedures at the Defense Supply Center, Columbus,” April 12, 2004

DoD IG Report No. D-2004-069, “The NATO AWACS Mid-Term Modernization
Program “Global Solution,” April 14, 2004



                                          36
DoD IG Report No. D-2004-064, “Acquisition of the Boeing KC-767A Tanker Aircraft,”
March 29, 2004

DoD IG Report No. D-2004-060, “Acquisition of the Joint Chemical Agent Detector,”
March 30, 2004

DoD IG Report No. D-2004-057, “Contracts Awarded for the Coalition Provisional
Authority by the Defense Contracting Command-Washington,” March 18, 2004

DoD IG Report No. D-2004-056, “Air Force Satellite Control Network Contract,”
March 10, 2004

DoD IG Report No. D-2004-055, “DoD Source Approval Process for Service & Sales,
Inc., a Small Business Manufacturer,” February 25, 2004

DoD IG Report No. D-2004-052, “Sole-Source Awards for Quick Disconnect Silencers,”
February 29, 2004

DoD IG Report No. D-2004-047, “Implementation of the DoD Management Control
Program for Army Acquisition Category II and III Programs,” January 23, 2004

DoD IG Report No. D-2004-046, “Acquisition of the CH-47F Improved Cargo
Helicopter,” January 21, 2004

DoD IG Report No. D-2004-037, “Defense Reutilization and Marketing Services
Commercial Venture Contracts for Privatization of the DoD Surplus Sales Program,”
December 30, 2003

DoD IG Report No. D-2004-020, “Allegations Concerning Improprieties in Awarding
National Guard Contracts,” November 18, 2003

DoD IG Report No. D-2004-015, “Contracts for Professional, Administrative, and
Management Support Services,” October 31, 2003

DoD IG Report No. D-2004-012, “Sole-Source Spare Parts Procured From an Exclusive
Distributor,” October 16, 2003

DoD IG Report No. D-2004-006, “Acquisition Management of the Army’s All Source
Analysis System,” October 10, 2003

DoD IG Report No. D-2003-120, “F/A-18E/F Integrated Readiness Support Teaming
Program,” August 8, 2003

DoD IG Report No. D-2003-115, “Allegations Concerning the Administration of
Contracts for Electronic Flight Instruments on the C-130H Aircraft,” June 30, 2003



                                           37
DoD IG Report No. D-2003-113, “Franchise Business Activity Contracts for Medical
Services,” June 30, 2003

DoD IG Report No. D-2003-112, “Contracting Practices of the Defense Security Service
for Personnel Security Investigations,” June 27, 2003

DoD IG Report No. D-2003-106, “Administration of Performance-Based Payments Made
to Defense Contractors,” June 25, 2003

DoD IG Report No. D-2003-099, “Service Contracts at the National Imagery and
Mapping Agency,” June 6, 2003

DoD IG Report No. D-2003-090, “Use and Control of Military Interdepartmental
Purchase Requests at the Air Force Pentagon Communications Agency,” May 13, 2003

DoD IG Report No. D-2003-088, “Acquisition of the Chemical Demilitarization
Program,” May 12, 2003

DoD IG Report No. D-2003-083, “Acquisition of the Suite of Integrated Radio
Frequency Countermeasures,” April 29, 2003

DoD IG Report No. D-2003-082, “Joint Operating Planning and Execution System
Funding,” April 25, 2003

DoD IG Report No. D-2003-077, “Cooperative Agreements Supporting the Mentor
Protégé Program,” April 10, 2003

DoD IG Report No. D-2003-056, “Public/Private Competition for the Defense Finance
and Accounting Service Military Retired and Annuitant Pay Functions,” March 21, 2003

DoD IG Report No. D-2003-029, “Contract Actions Awarded to Small Businesses,”
November 25, 2002

DoD IG Report No. D-2003-016, “Material Distribution Services Contract at the Defense
Distribution Depot Warner Robins, Georgia,” October 30, 2002




                                         38
Appendix D. Initiatives Taken by DoD to
Address Acquisition and Contract
Administration Challenges

DoD has taken numerous actions, whether required by public law, self-initiated or based
on our audit report recommendations, to address challenges in DoD’s acquisition and
contract administration. The initiatives addressed two major areas: contract-related
challenges resulting from operating in the contingency environment of Operation
Enduring Freedom (OEF) and Operation Iraq Freedom (OIF), and the continuing
problems throughout DoD to manage the substantial increases in Defense spending with a
smaller and less capable workforce. We have not reviewed many of these actions and
consequently we are not attesting to the adequacy or effectiveness of these initiatives.

Contingency Operations

DoD initiated many actions to address contract-related challenges in OEF and OIF.
These initiatives included establishing and revising guidance, fielding a new contractor
accountability system, adding new contingency contracting training at DoD academic
institutions, and looking at contracting challenges through commissions and task forces.

The Under Secretary of Defense for Acquisition, Technology, and Logistics established
the Task Force on Contracting and Contract Management in Expeditionary Operations.
The Task Force actions implement Section 849 of the Fiscal Year 2008 National Defense
Authorization Act, which directed the Secretary of Defense, in consultation with the Joint
Chiefs of Staff, to evaluate the Gansler Commission’s recommendations to determine the
extent to which such recommendations are applicable to the other Armed Forces. 1 The
Task Force is guided by senior leaders in the Acquisition, Technology, and Logistics
organization, including the Deputy Under Secretary (Acquisition and Technology); the
Director, Defense Procurement, Acquisition Policy, and Strategic Sourcing; and his
Principal Deputy. These senior leaders are working closely with the Deputy Under
Secretary (Logistics and Materiel Readiness) and the Assistant Deputy Under Secretary
of Defense (Program Support). Membership of this Task Force includes representatives
from all of the Services, the DCMA, the Joint Staff, the Joint Contingency Contracting
Command for Iraq and Afghanistan, and various elements of the Office of the Secretary
of Defense. The Task Force meets weekly for progress-tracking purposes, meets
periodically with the Services and DCMA to ensure a coordinated and consistent DoD
approach, and meets about once a month with Dr. Gansler to discuss any points of
clarification regarding the Gansler Commission’s recommendations.



1
    Mr. John Young, Under Secretary of Defense for Acquisition, Technology, and Logistics, before the
    House Committee on Armed Services, on April 2, 2008.

                                                     39
In addition, the Chairman of the Joint Chiefs of Staff has commissioned a Task Force on
Dependence on Contractors in Contingency Operations. This Task Force is examining
the use of DoD contractors in Iraq and Afghanistan as a focus, but is also analyzing
across the Range of Military Operations supporting the Joint Force Commander to
determine reliance and dependence on contractor support. It is tasked to determine areas
of high reliance on contractors, develop more complete Joint Capability Areas and
Universal Joint Task Lists, and provide recommendations for further changes to policy
and regulations.

Guidance on Oversight of Contractors
DoD has issued additional guidance to address contract-related challenges in OEF and
OIF, which includes exercising authority over contractors in contingency areas of
operations, tracking contractors performing work outside the United States, as well as
managing and integrating contractor support in joint and contingency areas of operations.

           On October 17, 2006, the Uniform Code of Military Justice (UCMJ) was
            amended to extend UCMJ jurisdiction over persons serving with or
            accompanying U.S. Armed Forces in the field in times of declared war or
            contingency operations. The Secretary of Defense’s March 10, 2008,
            memorandum, “UCMJ Jurisdiction Over DoD Civilian Employees, DoD
            Contractor Personnel, and Other Persons Serving With or Accompanying the
            Armed Forces Overseas During Declared War and in Contingency
            Operation,” provides additional guidance to commanders on exercising their
            UCMJ authority over civilians and contractors during contingency
            operations, including those supporting the Global War on Terror.

           In November 2006 and revised January 15, 2009, DoD issued DFARS
            Procedures, Guidance, and Information Subpart 225-74, “Solicitation and
            Award of Contracts for Performance in a Foreign Country or Delivery to any
            Unified Combatant Command Theater of Operation.” It requires combatant
            command contracting offices to establish and maintain a Web page listing all
            prevailing regulations, policies, requirements, host nation laws,
            Orders/Fragmentary Orders, combatant commander’s directives, unique
            clauses, and other considerations necessary for soliciting and awarding
            contracts for performance in or delivery to that combatant command area of
            responsibility. The Department had developed a standard organizational
            template to help Geographic Combatant Commanders meet this requirement.
            The Geographic Combatant Commanders are currently testing the electronic
            web template.

           In January 2007, the Deputy Under Secretary of Defense (Logistics and
            Materiel Readiness) and the Deputy Under Secretary of Defense (Program
            Support) issued guidance on the use of the Synchronized Predeployment and
            Operational Tracker (SPOT) as the central repository for information on
            contractors deploying with U.S. Forces. On March 19, 2007, the Director,
            Defense Procurement and Acquisition Policy issued implementing guidance
            on the use of SPOT. On January 28, 2008, the Director, Defense
            Procurement and Acquisition Policy issued guidance that requires that DoD
            contractor personnel data be entered into SPOT for the Central Command
            (CENTCOM) area of responsibility by August 1, 2008.

                                           40
                 In October 2007, the acting Under Secretary of Defense for Acquisition,
                  Technology, and Logistics issued a memorandum with procedures for
                  contracting, contract concurrence, and contract oversight for Iraq and
                  Afghanistan. This memorandum and subsequent policy, procedures, and
                  guidance, issued by the Director, Defense Procurement and Acquisition
                  Policy, instructs contracting officers to have the Joint Contracting
                  Command-Iraq and Afghanistan review and clear statements of work and
                  terms and conditions of all contracts requiring performance in Iraq or
                  Afghanistan before awarding a contract. This requirement, known as
                  “Theater Business Clearance,” helps ensure unity of effort in the theater of
                  operations. Also, upon award of any contract, the procuring contracting
                  officer must assign to the Joint Contracting Command-Iraq and Afghanistan
                  all FAR Part 42 and DFARS Part 242 contract administration functions for
                  the portions of contracts that relate to performance in Iraq or Afghanistan.

                 In March 2008, DoD issued DFARS 225.3, “Contracts Performed Outside
                  the United States.” It requires contracting officers, when using the FAR
                  clause 52.225-19, “Contractor Personnel in a Designated Operational Area or
                  Supporting a Diplomatic or Consular Mission Outside the United States,” to
                  inform the contractor that SPOT is the appropriate automated system to use
                  for the list of contractor personnel required by paragraph (g) of the clause.

                 DoD issued Joint Publication 4-10, “Operational Contract Support,” which
                  contains detailed content on operational contract support and contractor
                  management in joint operations. The joint publication defines key personnel
                  involved in the contracting process and includes planning considerations and
                  checklists for both Contract Support Integration and Contractor
                  Management. The Contract Support Integration Checklist covers the key
                  requirements associated with orchestrating and managing contracting efforts
                  in a joint operational area, including a requirement to ensure that there are
                  adequately trained Contracting Officer Representatives and Contracting
                  Officer Technical Representatives to assist in managing contract
                  performance. The Contractor Management Plan checklist covers the key
                  requirements associated with managing contractor personnel in a joint
                  operations area and providing Government-furnished support, when such
                  support is required. DoD issued the joint publication in October 2008.

                 DoD is updating DoDI 3020.41, “Program Management for Acquisition and
                  Operational Contract Support in Contingency Operations” (formerly titled
                  “Contractor Personnel Authorized to Accompany the U.S. Armed Forces”).
                  The update provides an authoritative and comprehensive roadmap of policy
                  and procedures applicable to contractor personnel authorized to accompany
                  the U.S. Armed Forces. The revised version contains significant changes to
                  the existing instruction including incorporating lessons learned from current
                  operations, requirements for developing contractor oversight plans, and
                  requirements for adequate military personnel needed to execute contract
                  oversight. 2
                 DoD has issued a draft DODI on U.S. Government Private Security
                  Contractors Operating in a Designated Area of Combat Operations. This


2
    Ginman.

                                                 41
                 draft DoDI prescribes the selection, accountability, training, equipping, and
                 conduct of personnel performing private security functions under a covered
                 contract in a designated area of combat operations. It also prescribes
                 incident reporting, use of and accountability for equipment, rules for the use
                 of force, and a process for the discipline or removal, as appropriate, of U.S.
                 Government Private Security Contractor personnel. The DoDI responds to
                 requirements of section 862 of the FY 2008 National Defense Authorization
                 Act. It has been forwarded for publication in the Federal Register for a
                 period of public comment.

                DoD has issued a draft DoD Directive on Orchestrating, Synchronizing, and
                 Integrating Program Management of Contingency Acquisition Planning and
                 its Operational Execution. This new Directive establishes policy and assigns
                 responsibilities for program management for the preparation and execution
                 of acquisitions for contingency operations, and for the accountability,
                 integration and management of all contractors supporting the DoD and all
                 U.S. Government Private Security Contractor personnel operating in an area
                 of contingency operations. It was signed in March 2009.
SPOT
DoD developed SPOT, an automated system, to track contractors. SPOT, hosted in the
Army network domain (https://spot.altess.army.mil/default.aspx) and operated by a
contractor, has been designated as the Joint Enterprise contractor management and
accountability system to provide a central source of contingency contractor information
in accordance with DoDI 3020.41, “Contractor Personnel Authorized to Accompany the
U.S. Armed Forces,” October 3, 2005. Contractor companies are required to maintain
(by name of each employee) accountability in SPOT while Government representatives
use SPOT for oversight of the contractors they deploy. Business Rules for the use of
SPOT have been updated and distributed to the entire contracting community of interest.

Contingency Contracting: A Joint Handbook
Beginning the first quarter of FY 2008, DoD distributed Contingency Contracting: A
Joint Handbook (the Contingency Contracting Joint Handbook) to the contingency
contracting workforce. 3 The Contingency Contracting Joint Handbook, authorized by the
Director, Defense Procurement and Acquisition Policy, provides a consolidated source of
information for contingency contracting officers conducting contingency contracting
operations in a Joint environment. The hardcopy book and accompanying DVD are
intended to be used for training at home stations, for reference during deployment, and
for training while deployed. The handbook and DVD provide useful tools, templates, and
training that enable the contingency contracting officer to be effective in any contracting
environment. The Contingency Contracting Joint Handbook was prepared by the Office
of the Under Secretary of Defense for Acquisition, Technology, and Logistics (OUSD
[AT&L]); the Air Force Logistics Management Agency and the Joint Contingency
Contracting Policy working group. This Handbook and associated DVD are refreshed


3
    Panel on Contracting Integrity, Quarterly Progress Update, March 31, 2008.

                                                     42
annually. The 2008 update included enhanced tools, such as critical action checklists. In
addition, the 2008 update included making the Handbook available electronically on the
USD (AT&L)/DPAP web site. This added feature will enable the Department to
incorporate lessons-learned and updated policies as they emerge. The Joint Contingency
Contracting Handbook can be accessed at http://www.acq.osd.mil/dpap/pacc/cc/jcchb/ 4

Contingency Contract Training
Under the Fiscal Year 2007 National Defense Authorization Act, DoD has expanded
contingency contracting training modules through the Defense Acquisition University
(DAU) as required by Section 854 of the Act. 5 DAU has redesigned the contingency
contracting curriculum to improve training supporting “journeyman-level” contingency
contracting operations. This will enable experienced contingency contracting officers to
be deployable worldwide and be effective immediately upon arriving at the site. 6 One
example of specific training DAU already provides is the Construction Contract
Management course prepared by DAU for the Joint Contracting Command-Iraq and
Afghanistan. DAU has revised the program of instruction for the Joint Contingency
Contracting Course, CON 234, using the Joint Contingency Contracting Handbook. 7
DAU is also developing an advanced contingency contracting course. 8 In addition, OSD
is developing an on-line module to train non-acquisition personnel on operational
contract support basics. This on-line module will equip non-acquisition personnel with
information on how to manage and oversee contractors supporting military operations. It
includes initial operational contract support predeployment joint training via Joint
Knowledge Online.

DAU also hosts the Joint Contingency Contracting Community of Practice on its Web
site to facilitate collaboration and sharing of learning and job support assets, which will
result in improved efficiencies and support. This initiative also serves as a repository for
policy and guidance information, predeployment information, tools, and after-action
reports. This community of practice as a Web-based tool enables the contingency
contracting community to share expertise and experience. Significant findings
concerning contingency contracting from staff assistant visits or internal self-inspection
programs, as well as after-action reports and lessons learned, must be posted to the DAU
Web site. 9 Additional information on DAU contingency contracting-related matters can
be found at https://acc.dau.mil/contingency.




4
  Contingency Contracting: A Joint Handbook.
5
  Mr. Gary Motsek, Assistant Deputy Under Secretary of Defense, Office of Program Support, before the
   Subcommittee on Oversight and Investigations, U.S. House of Representatives, on April 25, 2007.
6
  Honorable James Finley, Deputy Undersecretary of Defense for Acquisition, Technology, and Logistics
   before the Subcommittee on Readiness and Management Support, Senate Armed Services Committee,
   April 2, 2008.
7
  Panel on Contracting Integrity, Quarterly Progress Update, March 31, 2008.
8
  Mr. John Young, Under Secretary of Defense for Acquisition, Technology, and Logistics, before the
   House Committee on Armed Services, on April 2, 2008.
9
  Ginman.

                                                  43
Acquisition Policy Memorandum

In April 2007, the Director, Procurement and Acquisition Policy (DPAP) issued a
memorandum on the Proper Use of Award Fee Contracts and Award Fee Provisions. The
memorandum discussed the increased use of cost-plus-award-fee contracts and award fee
provisions, particularly for development efforts and low rate initial production efforts.
The purpose of this memorandum is to state the Department's policy with regard to the
proper use of award fee contracts and award fee provisions.

In May 2007 DPAP updated the memorandum on the Proper Use of Award Fee Contracts
and Award Fee Provisions to require the Head of Contracting Activity (HCA) for each
Other Defense Agency to retain the determination and finding (D&F) required by the
April 2007 memorandum for (a) all ACAT programs, and (b) all non-ACAT contracts
with an estimated value of $50 million or more. The D&Fs or ACAT 1 programs shall be
forwarded by the HCA to DPAP, as required by the DPAP memo. Copies of D&Fs on all
contracts shall also be included in the contract file.

In July 2007, DPAP issued a memorandum on Acquisition of Services (AOS) Review
and Decision Authority. The AOS Policy approved on October 2, 2006 requires the
components to notify DPAP when they are planning an AOS with an investment value
expected to exceed one billion dollars. This memo officially directs DPAP to conduct the
reviews, prepare associated procedure, and, with USD (AT&L) approval, permits the
Director, DPAP to authorize these acquisitions to proceed into source selection.

In August 2007, the Under Secretary of Defense for Acquisition, Technology, and
Logistics issued a policy memorandum to structure all planned competitions with one or
more Government feedback and dialogue points prior to receipt of final proposals. This
effort is an attempt to avoid the potential increase in the number of protests for
competitive source decisions.

In March 2008, the Director, Procurement and Acquisition Policy issued a memorandum
on the proper use of time-and-materials (T&M) contract types. The memorandum
addresses DoD's increasing reliance on T&M contracts, requires the military departments
and defense agencies to establish procedures for analyzing whether T&M contracts are
being used when other contract types are suitable and assess to the appropriate use of
T&M contracts by any contracting activity that acquired more than 10 percent of its
annual 2007 services acquisitions using T&M contracts or orders.

In May 2008, DPAP issued a memorandum that transmitted to Congress the
implementation plan for the DoD-wide inventory and reviews of contracts for services.
The phased plan includes the development of a prototype, utilizing the existing
Department of the Army database, and the Contractor Manpower Reporting (CMR)
System.

In May 2008, the Under Secretary of Defense for Acquisition, Technology, and Logistics
issued a policy memorandum to enhance competition for task and delivery order


                                           44
contracts. The provisions apply to orders issued on or after May 27, 2008, and
implement the provisions of Section 843 of the National Defense Authorization Act.

In July 2008, the Under Secretary of Defense for Acquisition, Technology, and Logistics
issued a memorandum to ensure that contracting officers are aware of current DoD policy
and requirements for monitoring contractor performance under contract for services,
especially when using time-and-materials and labor-hour type contracts including
interagency acquisitions.

In July 2008, the Deputy Under Secretary of Defense for Acquisition and Technology
issued a memorandum on DoD implementation of the electronic subcontracting reporting
system and reporting functions.

In August 2008, the Deputy Secretary of Defense issued a policy memorandum on
monitoring contract performance in contracts for services. The policy requires that all
agencies ensure that properly trained and ready contracting officer representatives are
assigned to provide surveillance of service contracts prior to contract award.

In August 2008, the Under Secretary of Defense for Acquisition, Technology, and
Logistics issued a memorandum to provide enhanced management oversight of
undefinitized contract actions (UCA). DoD agencies and Military Departments must
provide UCA Management Plans and semiannual consolidated UCA reports to the
Director, Defense Procurement, Acquisition Policy to provide key aspects of UCA use
and management, including actions taken to ensure timely and effective definitization.

In September 2008, the Under Secretary of Defense for Acquisition, Technology, and
Logistics issued a memorandum establishing DoD policy for peer reviews on contracts
for supplies and services. The objective of peer reviews is threefold: 1) to ensure that
contracting officers across the Department are implementing policy and regulations in a
consistent and appropriate manner; 2) to continue to improve the quality of contracting
processes across the Department; and 3) to facilitate cross sharing of best practices and
lessons learned across the Department.

In October 2008, the Under Secretary of Defense for Acquisition, Technology, and
Logistics issued a memorandum implementing Office of Federal Procurement Policy
guidance to improve the effectiveness of agencies use of interagency acquisitions.

In January 2009, the Under Secretary of Defense for Acquisition, Technology, and
Logistics approved a major revision to the DoD Acquisition System (DoDI 5000.02).
The revision is the first major change to acquisition policy in more than 5 years and
reflects the Department’s determination to improve the effectiveness and efficiency of its
enterprise-wide acquisition business processes so it can continue to provide warfighters
with the best weapons systems and support in the world.

In February 2009, the Director, Defense Procurement and Acquisition Policy issued a
memorandum which formally conveys to Military Departments, Defense Agencies and
DoD Field Activities the criteria used to review service acquisition strategies submitted
for approval and requires Military Departments, Defense Agencies and DoD Field
                                            45
Activities to use the criteria provided and document results when reviewing acquisitions
for services below the $1 billion threshold.




                                           46
Appendix E. Panel on Contracting Integrity
2008 Report, Actions Implemented in 2008,
and Actions for Implementation in 2009
On February 16, 2007, the Office of the Under Secretary of Defense (Acquisition,
Technology, and Logistics) established the Panel on Contracting Integrity in accordance
with the requirements of Section 813 of the National Defense Authorization Act for
Fiscal Year 2007 (Section 813). As required by Section 813, the panel is reviewing
DoD’s progress to eliminate areas of vulnerability that allow fraud, waste, and abuse to
occur. The panel established 10 subcommittees to support the review of contracting
integrity issues: Current Structure of Contracting Integrity, Sustained Senior Leadership,
Capable Contracting Workforce, Adequate Pricing, Appropriate Contracting Approaches
and Techniques, Sufficient Contract Surveillance, Contracting Integrity in a
Combat/Contingent Environment, Procurement Fraud Indicators, Contractor Employee
Conflicts of Interest, and Recommendations for Change. Each subcommittee completed
a review of its designated focus areas and presented recommendations to enhance
contracting integrity. The panel reviewed the requirements of Section 813, the findings
and 20 recommendations in the March 2005 Report of the Defense Science Board, and
the recommendations of GAO Report GAO-06-838R, “Contract Management: DoD
Vulnerabilities to Contracting Fraud, Waste and Abuse,” July 7, 2006.

In its second annual report to Congress (December 2008), the panel reported that it had
completed 20 of the 21 recommendations listed in the panel’s 2007 report. Those
accomplishments and an additional 28 actions the panel expects to implement in 2009 are
listed below.


21 Initial Actions for Implementation in 2008

Current Structure of Contracting Integrity
          Director, Defense Procurement and Acquisition Policy (DPAP) to reinforce
           the reporting and evaluation requirements in DoDI 5000.66.

          Component Acquisition Executive (CAE) to self-certify compliance with the
           reporting and evaluation requirements in DoDI 5000.66 and provide
           certifications to DPAP every 2 years.

          CAEs to self-certify compliance with the separation of duties described in
           DFARS 203.170 every 2 years.




                                            47
Sustained Senior Leadership
        Develop metrics for senior leadership positions in contracting for applying
         DoD-wide. OUSD(AT&L) will issue policy memorandum to require DoD
         Components to monitor and report these positions on a semiannual basis to
         preclude allowing long-term “acting” leaders in senior leadership positions in
         contracting. Using the metrics, OUSD(AT&L) should develop succession lists
         for temporary “acting” positions to monitor projected vacancies and initiate
         selection and nomination processes before vacancies occur.

        Include in the performance plans for all senior contracting leaders in the
         Department, whether under Senior Executive Service Pay for Performance
         System or National Security Personnel System, an integrity or ethics
         objective.

        Implement processes to measure the consistency of tone at the top.

Capable Contracting Workforce
        DPAP and senior contracting leaders determine appropriate workforce size.

        DPAP and senior contracting leaders develop initial human capital-planning
         addendum to OUSD(AT&L) Human Capital Strategic Plan.

        DPAP and senior contracting leaders’ resource and implement responsive
         human capital strategies and support recruiting, hiring, and retention
         initiatives (including intern/cooperative programs).

Adequate Pricing
        Develop a coordinated Contract Policy Execution Review Plan that recognizes
         Department-wide risks, promotes consistency in procurement policy execution
         across all components, and encourages peer review.

        Assess need for revised/additional training on competition requirements and
         differing pricing alternatives.

        Change commercial item definition by deleting the “of a type” phrase and
         revising the language, “offered for sale” to “has been sold.” If this requires a
         change to law, consider developing a legislative proposal. (On hold for
         analysis of the effect of recent legislation on 2008 sole-source contracts)

Appropriate Contracting Approaches and Techniques
        In interagency contracting, strengthen pre- and post-award oversight processes
         to consider fees charged by assisting agencies during the business planning
         process.

        Examine DoD-wide strategy to assess reliance on interagency contracts.




                                          48
        Explore means for strengthening competition advocate programs for
         multiple-award indefinite-delivery, indefinite-quantity contracts DoD-wide,
         with focus on increasing competition at task order level.

Sufficient Contract Surveillance
        Review contracting officer representative (COR) functions/responsibilities,
         develop DoD certification standard.

        Mandate COR assignment prior to contract award.

        Process COR appointment through management, ensure performance reviews
         include COR performance.

Contracting Integrity in a Combat/Contingent Environment
        Improve training by leveraging Marine Corps and Air Force training
         capabilities.

        Improve training on how to run a contracting office in a combat/contingent
         environment.

        Require subgroups to review Fraud Indicator Training and Continuity
         Book/Contracting Office Transition Plan.



Actions for Implementation in 2009

Current Structure of Contracting Integrity
        Publish a DPAP memorandum directing CAEs to designate and publicize an
         ombudsman for procurement integrity in their organizations.

        Incorporate in Section 5.3.12 of DoDI 5000.66, “CAEs of organizations with
         warranted contracting officers will self-certify compliance with this
         requirement every 2 years.”

Sustained Senior Leadership
        Help new leaders communicate expectations for contracting integrity to
         leaders and employees.

        Use case studies in contracting integrity to promote discussion and
         communicate standards in areas of ambiguity.




                                         49
Capable Contracting Workforce
        Require senior contracting leaders in the Components to participate in
         Component processes/efforts to submit workforce changes in the President’s
         Budget Exhibit PBR-23 for both the Program and Budget Review Submission
         and the President’s Budget processes. Consider contracting competency
         assessment results and other data, as appropriate.

        Require DPAP and senior contracting leaders in the Components to update the
         contracting human capital-planning section of the OUSD(AT&L) Human
         Capital Strategic Plan.

        Require DPAP and senior contracting leaders in the Components to develop
         and implement gap closure strategies and initiatives to address competency
         gaps, such as recruiting, hiring, and retention and document them in the
         Contracting Human Capital Strategic Plan. Submit strategies and initiatives
         for consideration by the Defense Acquisition Workforce Development Fund
         Steering Board established under Section 852 of the National Defense
         Authorization Act 2008.

Adequate Pricing
        Establish a working group to assess the need for establishing thresholds for
         higher level approval of commercial item determinations based on “of a type”
         and develop recommendations. This is an interim measure pending a
         legislative change proposal.

        Establish a working group to assess the current regulations and guidance
         (DoD IG Report D-2008-097, 5/23/2008) covering prime contract surveillance
         and pricing of its subcontracts and develop recommendations.

        Establish a working group to review approval levels for contracting officers’
         determination that a time-and-materials contract is the best type for
         procurement and develop recommendations.

Appropriate Contracting Approaches and Techniques
        Establish a Component cross-functional working group to identify and report
         on source selection deficiencies, best practices and lessons learned, and
         recommendations to increase accountability and oversight and to decrease
         complexity.

        Assess effectiveness of Departmental guidance and training for executing
         performance-based acquisition and perform gap analysis in conjunction with
         Defense Acquisition University (DAU).

        Provide updated guidance and training on competition initiatives and continue
         emphasis on enhancing competition for contracts and orders placed under
         multiple-award contracts.




                                         50
Sufficient Contract Surveillance
        Require DAU, with support from the Defense Components, to evaluate
         current COR training (Government and commercial).

        Develop a COR certification process.

        Develop an implementation plan for a COR certification process.

Contracting Integrity in a Combat/Contingent Environment
        Publish expeditionary contracting policy in DFARS as a consolidated effort of
         the Emergency Procurement Committee.

        Lead a multi-Service and agency Emergency Procurement Conference in
         spring 2009 open to stakeholders in DoD and other Government agencies.

        Revise the Joint Contingency Contracting Handbook and Contingency
         Contracting training curriculum to build upon current efforts.

Procurement Fraud Indicators
        Complete a Podcast regarding procurement fraud indicators.

        Draft an AT&L Journal article on procurement fraud indicators.

        Communicate with contracting officers, auditors, and the Defense Contract
         Management Agency representatives regarding an advanced course on
         procurement fraud indicators and determine the feasibility of developing it
         during 2009.

Contractor Employee Conflicts of Interest
        Issue an OUSD(AT&L) policy memorandum stating that advice from
         contractors’ employees should be free from personal conflicts of interest.

        Draft a DFARS clause prohibiting contractor employee conflicts of interest.

        Recommend DoD implementation of actions in response to Government
         Accountability Office reports “Post Government Employment of Former DoD
         Officials Needs Greater Transparency,” GAO-08-485, May 21, 2008 and
         “Army Case Study Delineates Concerns with the Use of Contractors as
         Contract Specialists,” GAO-08-360, March 26, 2008.

Recommendations for Change
        Submit for DoD coordination a legislative proposal to permit Federal agencies
         to retain fraud recovery funds.

        Establish a DoD-wide value-based ethics program.



                                         51
   Draft a legislative proposal to amend the Program Fraud Civil Remedies Act
    of 1986 or draft a stand-alone statute.




                                   52
Appendix F. Status of Recommendations
Implementation of Recommendations
There were 973 recommendations in the 142 reports discussed in this summary report.
As of September 30, 2008, sufficient actions had been taken on 800 of the 973
recommendations (82.2 percent); these recommendations are considered completed. The
Table below shows the overall status of recommendations as of September 30, 2008.

                          Overall Status of Recommendations

                                                    Percent                  Percent
                 Recommendations       Closed       Closed       Open         Open
     FY 2003          107               102          95.3          5           4.7
     FY 2004          225               221          98.2          4           1.8
     FY 2005           33                29          87.9          4          12.1
     FY 2006          184               148          80.4         36          19.6
     FY 2007          272               201          73.9         71          26.1
     FY 2008          152                99          65.1         53          34.9
     Total            973               800          82.2        173          17.8


Standards for Followup on Recommendations
Office of Management and Budget Circular A-50 “Audit Followup,” September 29,
1982, states that audit followup is an integral part of good management and is a shared
responsibility of agency management officials and auditors. Each agency must establish
systems to ensure the prompt and proper resolution and implementation of audit
recommendations. These systems must provide for a complete record of action taken on
both monetary and nonmonetary findings and recommendations.

GAO-07-731G Government Auditing Standards, July 2007, Chapter 7 “Field Work
Standards for Performance Audits,” Section 7.36 ”Previous Audits and Attestation
Engagements” states that generally accepted government auditing standards prescribe
followup requirements for audit findings and recommendations. Accordingly, for
performance audits, generally accepted government auditing standards state that auditors
should evaluate whether the audited entity has taken appropriate corrective action to
address findings and recommendations from previous engagements that are significant.
Auditor should use this information in assessing risk and determining the nature, timing,
and extent of current work, including determining the extent to which testing the
implementation of the corrective actions applies to the current engagement objectives.

DoD Directive 7650.3, “Follow-up on General Accounting Office (GAO), DoD Inspector
General (DoD IG), and Internal Audit Reports, “October 18, 2006, provides guidance for



                                           53
GAO, DoD OIG, and other DoD internal audit organizations. Followup is an integral
part of good management and is a responsibility shared by DoD managers and auditors.
Each agency implements its own followup program in accordance with the prescribed
standards. Further, as described by DoD OIG officials, in general DoD OIG attempts to
follow up on open recommendations semiannually to provide current data in the required
semiannual reports to Congress.




                                          54
55
